<html>
<title> - THE STATE OF CIVIL AND HUMAN RIGHTS IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 113-895]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-895

                      THE STATE OF CIVIL AND HUMAN
                      RIGHTS IN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            DECEMBER 9, 2014

                               ----------                              

                          Serial No. J-113-77

                               ----------                              

         Printed for the use of the Committee on the Judiciary





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






















                                                        S. Hrg. 113-895

                      THE STATE OF CIVIL AND HUMAN
                      RIGHTS IN THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CONSTITUTION,
                     CIVIL RIGHTS AND HUMAN RIGHTS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 9, 2014

                               __________

                          Serial No. J-113-77

                               __________

         Printed for the use of the Committee on the Judiciary










[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








  
  
  
  
  
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-427 PDF                WASHINGTON : 2018                 













                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
DICK DURBIN, Illinois                ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
           Kristine Lucius, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director
                                 ------                                

    Subcommittee on the Constitution, Civil Rights and Human Rights

                    DICK DURBIN, Illinois, Chairman
AL FRANKEN, Minnesota                TED CRUZ, Texas, Ranking Member
CHRISTOPHER A. COONS, Delaware       LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      JOHN CORNYN, Texas
MAZIE HIRONO, Hawaii                 ORRIN G. HATCH, Utah
                 Joseph Zogby, Democratic Chief Counsel
                 Scott Keller, Republican Chief Counsel



























                            C O N T E N T S

                              ----------                              

                      DECEMBER 9, 2014, 2:30 P.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     7
Cruz, Hon. Ted, a U.S. Senator from the State of Texas...........     4
Durbin, Hon. Dick, a U.S. Senator from the State of Illinois.....     1
    prepared statement...........................................    86
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     7
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     6
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont,
    prepared statement...........................................    83

                               WITNESSES

Witness List.....................................................    39
Alexander, Cedric, Psy.D., President, National Organization of 
  Black Law Enforcement Executives, and Public Safety Director, 
  DeKalb County, Georgia.........................................    19
    prepared statement...........................................    40
Booker, Hon. Cory A., a U.S. Senator from the State of New Jersey     8
Ellison, Hon. Keith, a Representative in Congress from the State 
  of Minnesota...................................................    13
Gutierrez, Hon. Luis, a Representative in Congress from the State 
  of Illinois....................................................    11
Henderson, Wade, President and Chief Executive Officer, The 
  Leadership Conference on Civil and Human Rights, Washington, DC    16
    prepared statement...........................................    47
Murphy, Laura, Director, Washington Legislative Office, American 
  Civil
  Liberties Union, Washington, DC................................    21
    prepared statement...........................................    64

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Abraham, Rabbi Joel N., Scotch Plains, New Jersey, et al., 
  statement......................................................   159
Allard K. Lowenstein International Human Rights Clinic at Yale 
  Law School, New Haven, Connecticut, statement..................   326
American-Arab Anti-Discrimination Committee (ADC), Washington, 
  DC, statement..................................................   363
American Association of University Women (AAUW), Washington, DC, 
  statement......................................................   353
American Civil Liberties Union (ACLU) Washington Legislative 
  Office, Washington, DC, statement..............................   648
American Friends Service Committee (AFSC), Philadelphia, 
  Pennsylvania, statement........................................   383
American Psychological Association (APA), Washington, DC, 
  statement......................................................   114
Amnesty International USA, New York, New York, statement.........   475
Anti-Defamation League (ADL), New York, New York, statement......   498
Arthur Liman Public Interest Program at Yale Law School, The, New 
  Haven, Connecticut, statement..................................   180
Asian Americans Advancing Justice (AAJC), Washington, DC, 
  statement......................................................   447
Barry, Rob, and Coulter Jones, ``Hundreds of Police Killings Are 
  Uncounted in Federal Stats: FBI Data Differs from Local Counts 
  on Justifiable Homicides,'' The Wall Street Journal, December 
  3, 2014, article...............................................   685
Bend the Arc: A Jewish Partnership for Justice, New York, New 
  York, statement................................................   169
Bennett, Sean, Kalamazoo, Michigan, statement....................   671
Brennan Center for Justice at New York University Law School, New 
  York, New York, and Washington, DC, statement..................   581
Campaign for the Fair Sentencing of Youth (CFSY), Washington, DC, 
  statement......................................................   604
Castaneda, Kimberly, Northeastern Illinois University 
  Undergraduate Student, ``Under the Threat of the Gun, Invisible 
  Betrayal 3: Police Sexual Misconduct,'' special project created 
  for Women's All Points Bulletin (WAPB) and victims of police 
  sexual assault, December 2, 2014, report.......................   407
Castro, Martin R., Chairman, U.S. Commission on Civil Rights, 
  Washington, DC, statement......................................   345
Center for American Progress (CAP), Washington, DC, statement....   565
Center for Constitutional Rights (CCR), New York, New York, 
  statement......................................................   316
Center for HIV Law and Policy (CHLP), The, New York, New York, 
  statement......................................................   274
Center for Reproductive Rights, New York, New York, statement....   210
Chicago Anti-Eviction Campaign (CAEC) and Chicago Independent 
  Human Rights Council (CIHRC), Chicago, Illinois, statement.....   432
Chinyere, Sahar, Founding Spokesperson, Stop Non-Consensual 
  Experiments on All World Citizens (SnoEOawc), Astoria, New 
  York, statement................................................   654
Chu, Hon. Judy, a Representative in Congress from the State of 
  California, statement..........................................   601
Coalition for the Peoples' Agenda, Atlanta, Georgia; Southern 
  Christian Leadership Conference, Atlanta, Georgia; and Cold 
  Case Justice Initiative at Syracuse University College of Law, 
  Syracuse, New York; jointly submitted statement................   136
Columbia Law School Human Rights Institute, New York, New York, 
  and Northeastern University School of Law Program on Human 
  Rights and the Global Economy, Boston, Massachusetts, statement   243
Common Cause, Washington, DC, statement..........................   372
Constitution Project, The, (TCP), Washington, DC, statement......   517
Council on American-Islamic Relations (CAIR), Washington, DC, 
  statement......................................................   306
Demos, New York, New York, statement.............................   190
Families Against Mandatory Minimums (FAMM), Washington, DC, 
  statement......................................................   282
Ferguson Action Network, statement...............................   457
Ferguson to Geneva Delegation, Members, Ferguson, Missouri; 
  Organization for Black Struggle, St. Louis, Missouri; and Hands 
  Up United, Ferguson, Missouri; jointly submitted statement.....   387
Fleming, Richard Max, M.D., J.D., statement on the International 
  Covenant on Civil and Political Rights (ICCPR) treaty..........    89
Hernandez, Israel, December 8, 2014, letter--redacted............   262
Hindu American Foundation (HAF), Washington, DC, statement.......   379
Human Rights Campaign (HRC), Washington, DC, statement...........   508
Human Rights First, New York, New York, and Washington, DC, 
  statement......................................................   468
Human Rights Watch, New York, New York, statement................   173
Illinois Justice Project, Chicago, Illinois, statement...........   123
Indigenous Peoples Caucus Southwest Native Cultures, Activist 
  Bettina Cruz, Geneva, Switzerland, statement...................    99
Interfaith Alliance, Washington, DC, statement...................   156
Jefferson, Jon, and Jane McPherson, statement--redacted..........   384
Juvenile Justice Initiative, Evanston, Illinois, statement.......   357
Kelly-James, Latrina, resident, Charlotte, North Carolina, 
  statement......................................................   254
Kollikkathara, Khalid, statement.................................   103
Lawyers' Committee for Civil Rights Under Law, Washington, DC, 
  statement......................................................   543
Leadership Conference on Civil and Human Rights, The, Washington, 
  DC, statement..................................................   615
Lowery, Wesley, ``How many police shootings a year? No one 
  knows,'' The Washington Post, September 8, 2014, article.......   679
Mary Turner Project, Valdosta, Georgia, statement................   527
Masayesva, Vernon, Director, Black Mesa Trust, Kykotsmovi, 
  Arizona, statement.............................................   418
Medical Whistleblower Advocacy Network, Washington, DC, statement   126
Miami Committee on State Violence, Miami, Florida, December 8, 
  2014, letter...................................................   257
Muslim Advocates, Oakland, California, statement.................   673
National Association for the Advancement of Colored People 
  (NAACP), Washington Bureau, Washington, DC, statement..........   487
National Association for the Advancement of Colored People 
  (NAACP) Legal Defense and Educational Fund, Inc. (LDF), New 
  York, New York, statement......................................   421
National Association of Latino Elected and Appointed Officials 
  (NALEO) Educational Fund, Los Angeles, California, statement...   197
National Coalition of Blacks for Reparations In America 
  (N'COBRA), Washington, DC, statement...........................   534
National Coalition of Blacks for Reparations In America 
  (N'COBRA), Washington, DC, and Chicago Alliance Against Racial 
  and Political Repression (CAARPR), Chicago, Illinois, jointly 
  submitted statement............................................   495
National Council of the Churches of Christ in the USA (NCC), 
  Washington, DC, statement......................................   554
National Disability Rights Network (NDRN), Washington, DC, 
  statement......................................................   632
National Network for Arab American Communities (NNAAC), Dearborn, 
  Michigan, statement............................................   483
National Task Force to End Sexual and Domestic Violence, Seattle, 
  Washington, statement..........................................   270
National Urban League, New York, New York, statement.............   334
NETWORK: A National Catholic Social Justice Lobby, Washington, 
  DC, statement..................................................   473
Nolan, Thomas, Ed.D., statement..................................   146
PEN American Center, Inc. (PEN), New York, New York, statement...   393
Perez, Julia, MSEE, Associate Director, ``The Harvest,'' and 
  former child laborer in the U.S., statement....................   218
Phonesavanh, Alecia, Georgia resident, statement.................   577
Project Vote, Washington, DC, statement..........................   292
Rabin, Norman C., December 9, 2014, email letter.................   598
Rabin, Norman C., statement......................................   608
Reyes, Hon. Sean D., Attorney General, State of Utah, Salt Lake 
  City, Utah, statement..........................................   414
Schaghticoke Indians, Kent, Connecticut, December 8, 2014, letter   532
Sentencing Project, The, Washington, DC, statement...............   296
Sharp, Fawn, President, Quinault Indian Nation, and President, 
  Affiliated Tribes of Northwest Indians, Olympic Peninsula, 
  Washington, statement..........................................   638
Sikh Coalition, New York, New York, statement and attachments....   224
South Asian Americans Leading Together (SAALT), Takoma Park, 
  Maryland, statement............................................   463
Southeast Indigenous Peoples' Center, Eatonton, Georgia, 
  statement......................................................   556
    Southeast Indigenous Peoples' Center, attachment I...........   558
    Southeast Indigenous Peoples' Center, attachment II..........   563
Southwest Native Cultures, Albuquerque, New Mexico, December 8, 
  2014, letter...................................................   515
Statement submitted for the record...............................   253
Stewart, Sonja, Michael Stewart, and Rachel Stewart, family of 
  shooting victim Matthew David Stewart, Ogden, Utah, statement..   594
Union for Reform Judaism and Central Conference of American 
  Rabbis, New York, New York, statement..........................   205
US Human Rights Network (USHRN), Atlanta, Georgia, statement.....   289
Voting Rights Forward (VRF), December 8, 2014, letter............   343
Zawodniak, Margaret, statement...................................   385

 
                      THE STATE OF CIVIL AND HUMAN 
                      RIGHTS IN THE UNITED STATES

                              ----------                              


                       TUESDAY, DECEMBER 9, 2014

                      United States Senate,
Subcommittee on the Constitution, Civil Rights and 
                                      Human Rights,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
Room SH-216, Hart Senate Office Building, Hon. Dick Durbin, 
Chairman of the Subcommittee, presiding.
    Present: Senators Schumer, Durbin, Whitehouse, Klobuchar, 
Franken, Coons, Blumenthal, Cornyn, and Cruz.

             OPENING STATEMENT OF HON. DICK DURBIN,
           A U.S. SENATOR FROM THE STATE OF ILLINOIS

    Chairman Durbin. Today's hearing is going to deal with a 
serious issue. I trust that members of the public here will 
take them seriously as we all do.
    I want to note at the outset that the rules of the Senate 
prohibit a showing of approbation or disapprobation, as they 
say--to put it in English, outbursts, clapping, and 
demonstrations. This includes blocking the view of people 
around you. Please be mindful of those rules as we conduct this 
hearing and I am thankful that the Capitol Police are here to 
ensure the safety and security of everyone present.
    Our identity as Americans is based on ideas and values. Not 
ethnicity nor creed. This is what makes our Nation unique. But 
sense its founding, there has been a divide between the promise 
and reality of America.
    The man who wrote in our Declaration of Independence that 
``All men are created equal'' was a slaveholder. The 
Constitution, our founding charter, which those of us in 
Congress swear to uphold and defend, originally treated African 
Americans as property and women as second-class citizens.
    The history of our country has been a long, slow, and 
painful march. Brave men and women have fought and sacrificed, 
sometimes even giving their lives in the struggle to create a 
``more perfect union'' that our national charter promised.
    Many of us think about the Greatest Generation, the men and 
women who served our Nation so valiantly in World War II. I 
recently read a story that is an illustration of what America 
was like in World War II.
    Italians and Germans who were captured in combat fighting 
our soldiers were brought to the United States as prisoners of 
war. They were held in places like military forts, like Fort 
Benning, Georgia. At Fort Benning, Georgia, the Italian and 
German prisoners of war had access to make purchases in the 
base exchange. African-American soldiers did not have that 
opportunity or that access.
    Some 2.3 million Americans are incarcerated. That is triple 
the amount of 30 years ago, 25 percent for drug offenses. 
Whites engage in drug offenses at a higher rate than African 
Americans, but African Americans are incarcerated at a rate 10 
times greater than White Americans for these offenses.
    America has changed. That same military that discriminated 
against African Americans back during the World War II era is 
now a Nation with an African-American Commander-in-Chief. The 
election of our first Black President shows we have come a long 
way as a Nation, but it is important to recognize and to say 
very clearly that there is still a challenge with racism in 
America and we still have more work to do.
    This Subcommittee has tried to look intently not just to 
our past, but to our present and to our future to examine what 
more needs to be done to protect civil and human rights in 
America. We tried to understand in this Subcommittee the human 
impact of the issues we debate by hearing directly from those 
most affected. We have given a platform to voices that are not 
often heard in the halls of Congress.
    I would like to show a brief video to remind us all what is 
at stake.
    [Whereupon, the video was played.]

    Chairman Durbin. In 2001, Eugenia Jennings was sentenced to almost 
22 years in prison for selling a small amount of crack cocaine. Her 
brother, Cedric Parker, testified at a 2009 hearing on the sentencing 
disparity between crack and powdered cocaine.
    Mr. Parker. Of course, you know my name is Cedric Parker. I am from 
Alton, Illinois, and I am here to tell you the things my sister, 
Eugenia, would say if she was here today. The severity of the mandatory 
minimums, and especially the sharp disparity between those for crack 
and powdered cocaine, have touched my family directly. Eugenia cannot 
be here because she is in Federal prison for selling crack cocaine.
    Chairman Durbin. In 2010, after 18 years in prison including 16 
years in solitary confinement, Anthony Graves became the 12th death row 
inmate to be exonerated in Texas. In 2012, he testified before this 
Subcommittee at the first ever congressional hearing on solitary 
confinement.
    Mr. Graves. I have been free for almost two years and I still cry 
at night because no one out here can relate to what I have gone 
through. I battle with these feelings of loneliness. I have tried 
therapy, but it didn't work.
    Chairman Durbin. In August 2012, a gunman killed 6 people at a Sikh 
temple in Oak Creek, including Harpreet Singh Saini's mother. One month 
after his mother died, Harpreet became the first Sikh ever to testify 
in Congress when he appeared at a Subcommittee hearing on hate crime.
    Mr. Saini. Senators, I came here today to ask the Government to 
give my mother the dignity of being a statistic. The FBI does not track 
hate crimes against Sikhs. My mother and those shot that day will not 
even count on a Federal form. We cannot solve a problem we refuse to 
recognize.
    Chairman Durbin. In 2013, Sybrina Fulton testified at a 
Subcommittee hearing on the impact of so-called Stand Your Ground Laws. 
Her 17-year-old son, Trayvon, was shot and killed while walking through 
a residential neighborhood in Sanford, Florida.
    Ms. Fulton. It is unfortunate what has happened with Trayvon. That 
is why I feel like it is so important for me to be here so that you all 
can at least put a face with what has happened with this tragedy.
    Chairman Durbin. Lucia McBath also testified at the Subcommittee's 
hearing on Stand Your Ground Laws. Her 17-year-old son, Jordan Davis, 
was shot and killed while listening to music with his friends in a car 
outside a convenience store in Jacksonville, Florida.
    Ms. McBath. But you can never really know my boy because an angry 
man who owned a gun, kept it close at hand and chose to demonstrate 
unbridled hatred one balmy evening for reasons I will never understand.
    Chairman Durbin. Damon Thibodeaux spent 15 years in solitary 
confinement at a Louisiana State penitentiary before he was exonerated 
in 2012. In 2013, Damon testified about his experience at the 
Subcommittee's second hearing on solitary confinement.
    Mr. Thibodeaux. I do not condone what those who have killed and 
committed other serious offenses have done, but I also do not condone 
what we do to them when we put them in solitary for years on end and 
treat them as subhuman. We are better than that. As a civilized 
society, we should be better than that.
    Chairman Durbin. Patti Saylor's son, Ethan, who had Down Syndrome, 
was killed when he was forcibly removed from a movie theater in 
Frederick, Maryland, by three off-duty Sheriff's deputies. Patti told 
Ethan's story at the Subcommittee's 2014 hearing on law enforcement 
responses to disabled Americans.
    Ms. Saylor. They placed him on the ground, prone restraint, put 
handcuffs on, and my son died of asphyxiation on that floor of that 
movie theater for that $10 movie ticket. Ethan was not escalated. He 
was not threatening. He was not in crisis.

    [Whereupon, the video ended.]
    Chairman Durbin. I have often said this Committee needs to 
focus on legislation, not lamentation. We have taken the words 
of our witnesses and translated them into action.
    I worked with the first Ranking Subcommittee Member here, 
Tom Coburn of Oklahoma, who is retiring this year. Together we 
passed four laws that give the Government more power to 
prosecute human rights abusers. In 2012, the Obama 
administration, under this authority, deported Liberian Warlord 
George Boley for using child soldiers.
    After we learned of the powerful testimony of Cedric 
Parker, I worked with Senator Jeff Sessions of Alabama and 
other Members of the Committee to pass the Fair Sentencing Act 
which significantly reduced the sentencing disparity between 
crack and powder cocaine and repealed a mandatory minimum 
sentence for the first time since the days of the Nixon 
administration.
    After the Subcommittee held the first ever Congressional 
hearings on solitary confinement where we heard from Anthony 
Parker Graves and Damon Thibodeaux, the Federal Bureau of 
Prisons agreed to my request to submit to the first independent 
assessment of its solitary confinement policies and practices.
    After we heard the brave testimony of Harpreet Singh Saini, 
I successfully pushed the Justice Department to begin tracking 
hate crimes against Sikh Americans, Arab Americans, and Hindu 
Americans. But we have been reminded in recent days that there 
is still much work to do.
    When our Government still believes it is acceptable, in the 
name of security, to profile people based on race, national 
origin or religion, there is still more work to do. When Muslim 
Americans are the targets of violent crime simply because of 
their religion, there is still more work to do.
    When States around the country draw up laws that make it 
harder for minority communities to vote, there is still more 
work to do. When unarmed African Americans, men and boys, are 
killed--names like Trayvon Martin, Jordan Davis, Michael Brown, 
Eric Garner--bring tears to our eyes, there is still more work 
to do.
    When protestors take to the streets to shout out ``Hands 
up. Don't shoot. I can't breathe. Black lives matter.'' There 
is still more work to do.
    When a significant part of the American family is 
disenfranchised and does not trust politics or criminal 
justice, there is still more work to do. Congress must accept 
its responsibility. We need to start with bipartisan efforts to 
protect civil and human rights.
    We should pass the Smarter Sentencing Act which I 
introduced with Senator Mike Lee; cosponsored by Senator Leahy, 
the Chairman of our full Committee; Senator Ted Cruz, my 
Ranking Member on this Subcommittee; and Senator Rand Paul of 
Kentucky. That is quite a broad spectrum of political belief 
and we all support this bill.
    We should restore Federal voting rights for ex-offenders, a 
cause which has been championed by Senators Ben Cardin and Rand 
Paul. There are some 5.8 million Americans who after paying 
their debt to society, still are denied a right to vote. And 
this type of disenfranchisement has a disproportionate impact 
on people of color. We need to pass the Voting Rights Amendment 
Act which was authored by Chairman Leahy and Republican 
Congressman Jim Sensenbrenner. This bipartisan legislation is a 
response to the Supreme Court's 2013 Shelby County decision.
    This will be my last hearing as Chairman of the 
Subcommittee before I turn over the gavel to Senator Cruz, the 
incoming Chairman. Clearly there is much work to do and I look 
forward to working with Senator Cruz in the 114th Congress as 
we continue to struggle to create a more perfect union.
    Senator Cruz.

              OPENING STATEMENT OF HON. TED CRUZ,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cruz. Thank you, Mr. Chairman. I thank the Member 
witnesses who are here today. There is no more important role 
for the United States Senate than to carefully guard and 
protect the civil rights of every American. We take an oath to 
uphold the Constitution and that is a promise every American 
rightly should hold us accountable to honor.
    The Chairman and I agree on a number of matters concerning 
civil rights. We, as he mentioned, both cosponsored the Smarter 
Sentencing Act which would reduce mandatory minimums for 
nonviolent drug offenders and help restore the proper balance 
of federalism, deterrence, and proportionality to these laws.
    We are also both cosponsors of the USA Freedom Act which I 
believe strikes a better balance between the need to combat 
terrorism through effective intelligence and at the same time 
protecting the privacy rights of every day Americans. I would 
note additionally, that the hearing this Committee held on 
solitary confinement policy earlier this year was, I think, a 
positive and productive hearing that shed light on a practice 
of law enforcement at the Federal level and State level that 
needs to change.
    All of those are positive. Yet, at the same time, civil 
rights remains a challenging topic in this country, a topic 
that is perceived differently by people of different racial 
backgrounds, ethnic backgrounds, socioeconomic backgrounds. We 
see the unfortunate reality in the last 6 years. Income and 
equality has increased, that in the last 6 years the rich have 
gotten richer. The top 1 percent today earn a higher share of 
our income than any year since 1928 and yet people who are 
struggling--young people, Hispanics, African Americans, single 
moms--are finding their lives harder and harder and harder.
    When it comes to civil rights, I think there is no civil 
right more important than the right of every child to access a 
quality education and in my view the most compelling civil 
rights issue of the 21st century is the need to expand school 
choice and educational options so that every child, regardless 
of race, regardless of ethnicity, regardless of zip code, 
regardless of wealth, has a fair opportunity to receive an 
excellent education.
    Unfortunately, that has not been a focus of this Committee 
for the past 2 years. I am hopeful it will become a focus of 
the Committee in the coming years.
    I would note, as well, that a disturbing pattern has been 
demonstrated over the last several years of the Federal 
Government violating the constitutional rights of the 
citizenry, whether it is the IRS disregarding the First 
Amendment rights of citizens, asking individual citizens, tell 
us what books you are reading, tell us the content of your 
prayers. Whether it is a consistent disregard for the Second 
Amendment, whether it is a disregard for religious freedom 
including, unfortunately, the Federal Government right now 
litigating against the Little Sisters of the Poor, a Catholic 
convent of nuns who have taken vows of poverty, who devote 
their lives to caring for the poor and elderly and yet they are 
in court, with the Federal Government trying to impose millions 
of dollars of fines on them in order to force the nuns to pay 
for abortion-inducing drugs, contrary to the religious faith.
    Beyond that, we have seen a pattern of lawlessness from the 
Federal Government that should trouble anyone concerned about 
civil liberties, concerned about the Bill of Rights. In my 
capacity as the Ranking Member on this Committee, we have 
issued a series of five reports cataloging the disregard of the 
Federal Constitution, the disregard of the Bill of Rights, from 
the administration. Indeed, we cataloged 22 cases where the 
Federal Government has gone before the U.S. Supreme Court 
defending expanded Federal power and has been rejected 
unanimously 9-to-nothing.
    In one of those cases, the Department of Justice went 
before the U.S. Supreme Court and said the Bill of Rights says 
nothing about whether the Federal Government can put a GPS 
locator on any citizen's car. The position of the Department of 
Justice was that that does not require probable cause, it does 
not require articulable suspicion. Indeed under DOJ's position, 
every witness who attended this hearing today, every individual 
citizen who came, the Federal Government could go and place a 
GPS on your automobile outside without raising any Fourth 
Amendment concerns whatsoever.
    That was an extraordinary position. Thankfully, the U.S. 
Supreme Court rejected the Department of Justice's views 9-to-
nothing.
    We need to be vigilant defending the civil rights of every 
American and I look forward to this Committee, the larger 
Judiciary Committee, and to the Senate continuing to do so and 
we need to have a particular responsibility to safeguard the 
Bill of Rights.
    I would note the saddest moment during my time in the 
Senate was when 54 Senate Democrats cast a vote for a 
Constitutional Amendment to repeal free speech protections of 
the First Amendment. That was not consistent with our 
obligations to protect civil liberties and I am hopeful going 
forward we will be vigilant protecting the civil liberties of 
every American.
    Thank you.
    Chairman Durbin. Thank you, Senator Cruz.
    We are going to turn to our first witness panel. I want to 
welcome our colleague, Senator Cory Booker, Congressman Luis 
Gutierrez, and Congressman Keith Ellison.
    We are going to give Senator Klobuchar an opportunity to 
introduce Congressman Ellison. I want to note that Congressman 
Judy Chu, Chair of the Congressional Asian Pacific American 
Caucus, had a schedule conflict and could not join us.
    Each of our witnesses are going to have 5 minutes to make a 
statement and answer questions that may come up afterwards. I 
will acknowledge two Members and then turn to Senator Klobuchar 
to acknowledge the presence of Congressman Ellison.
    First to testify today will be Senator Cory Booker of New 
Jersey. Last month he was re-elected to serve in the Senate, 1 
year after winning a special election.
    Senator Booker serves on the Committees of Commerce, 
Science and Transportation; Small Business; and Environment. He 
is currently the only Senate Member of the Congressional Black 
Caucus.
    Following him will be Congressman Luis Gutierrez from my 
State of Illinois, last month re-elected to serve his 12th term 
representing the 4th District. He is a Member of the 
Congressional Hispanic Caucus, and serves on the House 
Judiciary Committee and the House Permanent Select Committee on 
Intelligence. He previously testified before this Subcommittee 
at our hearing on racial profiling in 2012 and our hearing on 
Stand Your Ground Laws in 2013. Congressman Gutierrez will 
follow Senator Booker.
    Senator Klobuchar.

    INTRODUCTION OF HON. KEITH ELLISON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MINNESOTA, BY
 HON. AMY KLOBUCHAR, A U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much. It is great to be 
here with Senator Booker and Congressman Gutierrez. Thank you 
so much for being here.
    I am really here to recognize my friend, Keith Ellison. 
Keith and I go way back to when I was a prosecutor, the chief 
prosecutor in Hennepin County and he was a criminal defense 
lawyer, but somehow we have remained friends through it all. I 
think it is a testament to everything that he has stood for.
    Before he came to Congress, again, he also did a lot of 
civil rights work and so it prepared him for the work that he 
has done in Congress. He was the first Muslim in Congress and 
we are very proud of that in Minnesota. He is a strong voice 
for justice and civil rights.
    We have worked on several bills together, environmental 
bills and other things, but I think the thing that is most 
appropriate for this discussion today is the Same Day 
Registration Act, a bill that I am carrying and working with 
Senator Tester on in the Senate and he has it in the House and 
it would reduce barriers to voting.
    When we think about the grand jury issues and who serves on 
grand juries, this is actually relevant, Chairman Durbin. It is 
relevant because the list for the grand jury comes from voter 
roles. They also come from other places, especially in Hennepin 
County, where we work to make sure other lists were included 
for who serves on grand juries.
    So when you limit who can vote, you actually also limit who 
can serve on grand juries because that is where you get your 
source for people that serve on grand juries if you want to 
have grand juries that reflect our community as well as law 
enforcement that reflect our community.
    We have done a lot of great work in Hennepin County with 
DNA and with other things, videotaping interrogations that we 
are proud of, but I think that this is important to think about 
with the voter issues. There is a connection.
    Thank you very much and we are glad to have you here, 
Congressman Ellison.
    Senator Cornyn. Mr. Chairman.
    Chairman Durbin. Just one second, please. Twin Cities, twin 
introductions. Senator Franken would like to say a word.

    INTRODUCTION OF HON. KEITH ELLISON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MINNESOTA, BY
  HON. AL FRANKEN, A U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Franken. Well first, I just want to associate 
myself with Senator Klobuchar's remarks, mainly about Keith, 
less about the grand jury, but that is important too.
    Keith has been someone who has been talking about this, 
these encounters between members of the minority community and 
law enforcement long before we have gotten to the recent 
challenges that we are talking about today and that people have 
been talking about. I am very proud of Congressman Ellison.
    Chairman Durbin. Senator Cornyn.
    Senator Cornyn. Mr. Chairman, I just wanted to know if it 
would be in order to make a brief statement.
    Chairman Durbin. Without objection, please.

             OPENING STATEMENT OF HON. JOHN CORNYN,
             A U.S. SENATOR FROM THE STATE OF TEXAS

    Senator Cornyn. I appreciate that. I just want to add a 
couple of words by way of thanks to you for convening this 
hearing to talk about a very important issue to all Americans 
and that is the state of civil and human rights in this country 
of ours.
    I know your focus is primarily going to be on the criminal 
justice system and I would say that I hope that this hearing 
will take a long view and not just a short-term view. Obviously 
on our minds, the recent tragedies of what have occurred are 
fresh, but I think caution would tell us that we ought to wait 
until there has been a thorough investigation and all of the 
facts revealed before we draw any conclusions.
    But I also worry that just the recent tragedies will 
somehow distract us in some ways from the great successes that 
law enforcement has had since the crime waves of the 1980s and 
1990s. Since 1993, violent crime rates are down 48 percent in 
this country. Law enforcement officer death rates are down 37 
percent. Homicide rates are down 50 percent. Robbery rates are 
down 56 percent and property crime rates are down 40 percent. 
So while we know that there are incidents that deserve and must 
be investigated and follow the facts where ever they must lead, 
I hope we keep that success in mind as well as part of the 
overall context.
    I would just finally say that we have tried to get Senator 
Reid to take up some bipartisan legislation, part of what you 
mentioned earlier, the Sentencing Act that you and Senator Cruz 
and others are working on, but also I want to mention the 
Recidivism Reduction and Public Safety Act that Senator 
Whitehouse and I cosponsored here in the Committee that got--if 
I am not mistaken--unanimous support in the Committee, but we 
have just been unable--well, we have got two people that did 
not agree with us yet. We hope to convince them.
    We were not able to get time on the floor to be able to 
take that up. My hope is after the new year, that we will be 
able to get both of these bills up on the floor and thoroughly 
debate these issues because I think we have seen that this is 
not an area where partisanship has any role to play, that 
working together we can come up with some better solutions on 
our criminal justice system even as we insist that tragedies 
like the ones that are fresh in our minds are thoroughly 
investigated and that we leave no stone unturned.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Cornyn. Let us get 
together, all of us interested in those two bills, and make 
sure it is a priority in our new Congress.
    Now let me recognize our colleague, Senator Cory Booker.

               STATEMENT OF HON. CORY A. BOOKER,
          A U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. I want to thank the Chairman and the 
Ranking Member for having this hearing and I want to thank all 
of my colleagues who are before me, each and every one of you I 
have had discussions with, very encouraging discussions, around 
these issues.
    You said very specifically, and I want to honor that, that 
the time for lamentations has passed. The time for legislation 
is upon us. I want to apologize if it seems that I am going off 
of that directive, but I will end up right there.
    This is a very, very personal issue for me, this evolution 
of the United States toward its ideals. Children from Newark, 
New Jersey, to Oakland, California, stand up every day and say 
the pledge of allegiance that we are a Nation with liberty and 
justice for all.
    But these last few weeks, we have seen tens of thousands of 
Americans taking to the streets in anguish and rage and 
frustration. I agree with Senator Cornyn that it is too early 
in many ways to draw conclusions when there are Federal 
investigations still going on on many of those issues.
    I appreciate the sensibility of his remarks, but please 
understand that the anguish that folks are feeling on the 
streets, the anguish that has penetrated this body and has had 
me pulled aside by Senate pages, and many people we walk by, in 
this body who do the dignified important work, yet menial work, 
who have asked me, please do something about this.
    What is that ``this'' they are talking about? I, as many of 
you know, was raised in a community which my family, in 1969, 
the year of my birth, was the first Black family to integrate 
this area. My classmates and teammates were all White, growing 
up. My dearest and closest friends now, I feel blessed and 
privileged that I have people who are like blood to me of all 
different backgrounds.
    But I know growing up our experiences as our parents talked 
to us about police officers, talked to us about behavior, there 
was dramatic differences between the exhortations of Black 
parents, Latino parents, and White parents. I remember, 
distinctly, my parents lecturing me with anger in their voice 
that I did not have the margin of error when it comes to 
experimenting with drugs or other behaviors that others have.
    What I want to do right now is put this in context of what 
you called us to talk about, which is legislation. And put it 
to a context to a horrible history in our country, that history 
of bias that we are desperately trying to work our way out of.
    In my lifetime, we have seen something happen that is 
remarkable on the planet Earth, which is the explosion of the 
American prison system to the point now where America has 5 
percent of the globe's population, but 25 percent of the 
world's--of humanity's imprisoned people. And by God, we do not 
have a country that has more criminals, more criminality, more 
crime intent people than China or Russia or India.
    That explosion of criminality has made us see in the last 
30 years an 800 percent increase in the Federal prison 
population. Half of those prisoners at the Federal level and 
the overwhelming majority on the national level are nonviolent 
offenders--nonviolent, not picking up guns, not beating people 
in the streets, not assault.
    We as Americans, unlike any other country, bear the burden 
of spending a quarter of a trillion dollars carrying this 
system. The point that is felt in the anguish of staff I talk 
to here in the Senate and people protesting is not the 
specifics, necessarily of cases, but of the knowledge that we 
all have, that none of my colleagues, Republican or Democrats, 
have denied to me that this system is woefully biased against 
minorities in our country.
    The data screams that we all have access to and that we all 
know--that there is no difference--no difference, for example, 
in marijuana usage between Blacks and Whites in this country, 
none whatsoever. The last three Presidents of the United States 
admitted to using marijuana--and I say for the record, one said 
he did not inhale.
    [Laughter.]
    Senator Booker. But yet, an African American is about 3.7 
times more likely to be arrested for marijuana usage than 
someone that is White. That is a fact.
    We know we have a criminal justice system that has 
uncontainable outcomes that do not reflect the highest values 
that children of every ilk pledge allegiance to, values that we 
swear oaths to, that we should have what that building across 
the way says, powerfully written in stone ``equal justice under 
the law.''
    And what do I mean by some of these things that jump up and 
call to the conscience of this country? We have a Nation where 
African Americans make up 13 percent of the U.S. population, 
but 40 percent of the imprisoned population. In my State, it is 
13 percent and 60-plus percent of the prison population.
    Nonviolent offenses--that according to the 2012 report for 
the U.S. Sentencing Commission, between 2007 and 2009, drug 
sentences for African-American men were 13.1 percent longer. We 
know that Latino youth today--by the age of 23, 44 percent of 
Latino youth will be arrested--44 percent, most of them for 
nonviolent offenses.
    We know the sad reality for African-American men, one in 
three African-American males born today can expect to be 
incarcerated at some point unless we make a change. When you 
hear about police violence, trust me, I was a mayor of a great 
American city. It was challenging and complicated in the 
constant battle against crime to keep my community safe. These 
are nuanced issues. We struggle with them in Newark.
    But we know that right now there are 6.5 million Whites 
arrested against about 2.6 million African Americans arrested 
in a year. But ProPublica--and that means Blacks and Whites, 
violent crime, nonviolent crime, 6.5 versus 2.6, White to 
Black. But now someone who is African-American, according to 
data quoted by my Republican colleague, Rand Paul, in Time 
Magazine, are 21 times more likely to be shot dead by a police 
officer--African Americans, 21 times more likely to be shot 
dead by a police officer than someone White.
    So I anguish over this fact that my country has been 
evolving through the dedicated determinate acts of Black and 
White through slavery, through Jim Crow, but I find myself a 
Senator at a time that we have this ironic reality, there are 
more African Americans now in prison under criminal 
supervision, prison, jail, probation, parole than all the 
slaves in 1850. So this is what sears into me as a painful 
reality because we, as a body, Congress has the power to change 
this.
    And the elected leadership is showing this most clearly is 
not coming from the Federal level, it is actually coming from 
the States. Remarkably, refreshingly, it is coming from red 
States. Red State Governors with their legislatures are passing 
legislation that this body should be passing that is showing 
clearly that you can deal with this over-incarceration problem 
through commonsense bipartisan legislation.
    The one example I will give as I lead to my close is 
Georgia. Governor Nathan Deal, he has cut spending on prisons, 
reduced penalties for nonviolent offenses. The result of his 
commonsense reforms has been a dramatic reduction in prison 
population and guess what--a 20-percent reduction over 5 years 
in the number of incarcerated African-American men in their 
State, a 20-percent reduction.
    So we can say what we want about the details of Staten 
Island or Ferguson, but there is a larger issue going on that 
is anguishing their heart, from young people working in this 
institution to cities and neighborhoods and towns all over our 
country. The question is, enough of the lamentation, when will 
there be legislation?
    So I conclude with that call. It is a call that has rang 
through the ages of our Nation, that we have something so 
precious. This week Jews all across our country will be reading 
a portion of the Torah that has a section with these words that 
are written and inscribed from the Torah on the very site that 
Martin Luther King was killed.
    I had the privilege recently of watching the movie, 
``Selma,'' and seeing Blacks and Whites joining hand-in-hand, 
Latinos and other Americans in this ideal of America that these 
issues are not Black or White. They are about justice. They are 
about America, that people of good conscience when there is 
clear and patent treatment being given to one body of Americans 
and not to another, that there is a call to act.
    It is this idea and this dream and written on that place in 
Memphis, Tennessee, of the site that one of our great 
Americans--not great Black American--one of our great Americans 
died, it is the words from the Torah that call upon us now. 
Simply these, ``Here cometh the dreamer. Let us slay him and 
see what becomes of his dreams.''
    There has been enough death in this country. There has been 
enough over-incarceration. It is time now that we make the 
dream real. We, through our legislative efforts, as illustrated 
by State after State, can now follow suit, reduce our prison 
populations, lower crime, save taxpayers money, and more 
effectively herald the highest ideals of our country.
    Thank you.
    Chairman Durbin. Thank you, Senator Booker.
    Congressman Luis Gutierrez of Chicago.

STATEMENT OF HON. LUIS GUTIERREZ, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Representative Gutierrez. Thank you, Chairman Durbin and 
Ranking Member Cruz for inviting me to testify at this hearing 
regarding the current state of civil and human rights in the 
United States. Thank you, Senator Durbin for advocating for 
justice and equality.
    I have always valued your advice and counsel. Your 
leadership on the Judiciary Committee and as Chairman of the 
Subcommittee has contributed greatly to our Nation and to 
protecting the civil rights of all of us. I came here to say 
thank you.
    Before I begin, I want to extend my heartfelt condolences 
to the families and friends of Michael Brown and Eric Garner. I 
think we can all agree that the loss of life is a great 
tragedy. As a parent, I especially want to say to the parents 
that I am so sorry for your loss.
    In the wake of the grand jury decisions to not indict the 
officers involved in the deaths of Michael Brown and Eric 
Garner, communities throughout the country have taken to the 
streets to protest. Many are deeply dissatisfied with decisions 
not to prosecute the police officers in Ferguson and Staten 
Island and transparently examine their actions and the 
circumstances that led to the deaths of two unarmed Black men.
    The protests also expose an equally disturbing issue, that 
the killings of Brown and Garner are not isolated issues. I 
believe the visceral reaction around the country is because 
these cases represent the countless young men who are treated 
unjustly by the police and many question their ability to 
receive justice through the current court system.
    These deaths expose gaps in our criminal justice system. In 
particular, the grand jury process and the inherent conflict 
and bringing charges against law enforcement. Clearly we have 
more work to do to build trust between communities and law 
enforcement in our system of justice.
    African Americans and Latinos are disproportionately 
impacted by the criminal justice system over all. Racial 
profiling condoned officially or unofficially by some in law 
enforcement forces Blacks and Latinos to contend with the 
criminal justice system more frequently in a completely 
different way than many others in our society. Minority 
communities have a higher prosecution rate and at the post-
conviction stage, sentencing orders tend to be harsher among 
minority defendants.
    All too often, Latinos and Blacks are victims of excessive 
use of force at the hands of rogue police officers. The issue 
is only exacerbated when local and State police departments are 
equipped with military equipment, as was the case in Ferguson, 
Missouri, this past summer.
    The cycle continues as we saw just last week when grand 
juries guided by prosecutors who work on a daily basis with the 
police failed to even call for a trial in open court. It is not 
surprising that the system breeds mistrust. This vicious cycle 
not only affects individuals, but also affects our African-
American and Latino communities as a whole.
    When we see children like Michael Brown and Eric Garner and 
Trayvon Martin, we see our own families in our own loved ones. 
Ask any Latino or African-American parent whether they live in 
a suburb or in a housing project and they will tell you they 
fear for their children's safety every time they leave the 
house.
    Rather than thinking of the police as a public servant who 
will protect the safety of their children, too often they think 
of local police as one of the harshest their children have to 
face. I think only of my daughter, Jessica, who was stopped 
because she was driving in too nice of a car. She was with her 
friends in her own neighborhood. Her mom and dad apparently 
made the mistake of living in a neighborhood they could afford 
to live in, not one the police officer thought she should be 
living in.
    Or when I was stopped and refused admission to this very 
Capitol complex early in my year because as the Capitol Hill 
police officer said, I did not look like a Congressman. Too 
many have face profiling, subtle and explicit, annoying and 
yes, potentially dangerous when the profiler has a badge or has 
a gun.
    I respect and appreciate the hard work that law enforcement 
officers do to keep our communities safe. We have worked to get 
more cops on the street to invest in violence reduction 
programs to reduce the number of guns in our communities that 
often target police officers, and to make sure we honor and pay 
police officers for the dangerous and often thankless work 
police officers do.
    I am also proud to be an original cosponsor of the End 
Racial Profiling Act which I think is clearly and sorely 
needed.
    With regard to the revised profiling guidelines issued 
yesterday by the Department of Justice, I am deeply 
disappointed that they did not close significant loopholes, 
especially as they pertain to the Department of Homeland 
Security which will allow whole sections of America's largest 
law enforcement entities, including Customs, Border Patrol, and 
Transportation Security Administration, to continue to profile 
many innocent Americans. I am also perplexed and disheartened 
that the new guidance applies only to Federal agents, but 
exempts local, county, and State law enforcement.
    Civil and human rights today in America continues to be a 
work in process thanks to the leadership of Chairman Durbin and 
many of my colleagues including those seated with me today. We 
are able to celebrate the strides we have made to create a more 
equal and just Nation for all and chart the course of continued 
progress in the future, but it is tempered by knowing that we 
cannot rest in the pursuit of justice and fairness, especially 
in the face of tragic and needless cost of life.
    We have come a long way. Senator Booker is a testament to 
that. My buddy, Keith, is a testament to that. I hope to be a 
testament to that. Let us continue to do the good work. I thank 
you for your wonderful leadership, Senator Durbin.
    Chairman Durbin. Thanks, Congressman Gutierrez.
    Congressman Ellison of Minnesota.

       STATEMENT OF HON. KEITH ELLISON, A REPRESENTATIVE
            IN CONGRESS FROM THE STATE OF MINNESOTA

    Representative Ellison. Mr. Chairman, thank you very much 
and also thank you to the Ranking Member, also a special thanks 
to my fellow Minnesotans, Senator Klobuchar and Senator 
Franken, and the entire panel.
    Of course, I was very moved by the words of my fellow 
panelists. They were amazing and I want to say ``ditto'' on 
everything they said.
    Last week, 15-year-old Abdisamad Sheikh-Hussein was run 
over by a man in an SUV and the bumper sticker on his car said, 
``Islam is worse than Ebola.'' But today I am not here to talk 
and focus on private hate crimes and discrimination, although 
that deserves all of the attention that we can muster.
    Today I would like to talk about the discrimination that 
happens at the hands of state actors. I think we should shine a 
light on all forms of discrimination, but I think that the 
events that we have seen over the last few weeks demonstrate 
how very important it is for the state, and people who act on 
behalf of the state, to get it right.
    People have a legitimate higher expectation of people who 
operate on behalf of the state. Our Government is a democratic 
government and it is undergirded by a Constitution and the 
people have every right to believe that the Government is there 
to protect the general welfare.
    And that makes it all the more disappointing when people 
who operate on behalf of the state fail to live up to that 
expectation. People have a right to believe that they will be 
dealt with justly and fairly by the state, but when the state 
violates people's rights, it is fair for people to wonder who 
is going to protect my rights if the state will not? And that 
is why people are particularly incensed by encounters between 
citizens and law enforcement.
    People are grateful for law enforcement. We believe in law 
enforcement. I am grateful for law enforcement and I know 
people who are in law enforcement. Most of them go into it 
because they want to help people, but when they fail and when 
excessive force is employed, it is incredibly disappointing and 
it shakes people's confidence in what the state is supposed to 
do for them, which is to protect them and promote their 
welfare.
    You know, the injustices we have seen over the past week is 
not new. It is not the first time the police have been 
videotaped using excessive force. None of us can ever forget 
Rodney King. It is not the first time people have died in 
police custody and it is not the first time that a grand jury 
has vetoed justice.
    Why are people walking around with their hands up saying, 
``I cannot breathe''? Why are people saying, ``Don't shoot''? 
Why are they proclaiming these things all over cities in 
America? It is because of a long train of abuses, not one 
particular case. People who want to argue over the nuance of 
one recent case in the news or another are free to do so, but 
no one can deny the unmistakable pattern between police and 
community, particularly Black community, and men in the 
community.
    We could talk about Eric Garner and Michael Brown, but what 
about Tamir Rice, 12 years old? What about Darren Hunt who had 
a toy? What about Rodney King?
    And by the way, not only is this a long train of abuses, it 
goes back further even than the Kerner Commission Report which 
said our Nation is moving toward two societies, one Black, one 
White, separate and unequal. Fifty years ago we were dealing 
with this same issue and it is on us today and we must make a 
call to action to reverse this trend so that every American, 
all Americans, can feel that the Government really is liberty 
and justice for all.
    So instead of a system of justice that works for some and 
does not work for all, this injustice takes place within a 
social and economic context. I have to say, that when Officer 
Wilson confronted Michael Brown on Canfield Drive in Ferguson, 
the interaction did not take place in a vacuum.
    Ferguson, Missouri's unemployment rate is 13 percent, over 
double the national average. The number of poor people in 
Ferguson doubled over the last 10 years. In 2012, almost all of 
Ferguson's neighborhoods had a poverty rate of over 20 percent. 
The fact is if we respond by ordering body cameras, ordering 
police cameras, these will be good steps. If we have grand jury 
reform, if we require that there are preliminary hearings in 
these officer-involved shootings so we can have more 
transparency, these will all be good things, but they will not 
stop the pattern unless we deal with the structural economic 
abandonment of cities like Ferguson.
    We cannot continue to solve our economic and social 
problems with criminal justice solutions. The fact that our 
low-income and minority communities are over-policed and under-
protected is the spark, but poverty and economic deprivation is 
the kindling and that is what lights the flame.
    I say ``yes,'' again, to body cameras and all types of 
reforms, but please let us not forget that investing in 
infrastructure, education, public job programs, and providing 
for social supports which help people stay away from the 
hardest aspects of an unfair economy, are essential. You do not 
sell ``loosies'' on the streets of Staten Island if you are 
making a livable wage.
    We know that we have an inequality problem when the CEO of 
Walmart makes over $12,000 an hour and the average Walmart 
worker makes $8.48. The CEO of McDonald's makes $9,200 an hour 
and the cashier makes $8.25. So please do not forget that 
dealing with the economic deprivation that kindles these 
situations is incredibly important. It is important in the 
recent cases. It will be important in the future.
    I would now like to turn my attention, just for a moment, 
to talk about the problems that affect the Muslim community in 
particular. Societal discrimination is real. I have been the 
direct victim of it myself. In my own State only a few days 
ago, a county party chairman called Muslims parasites and said 
they should be fragged. That means to kill them violently.
    A State Senator in Oklahoma said that American Muslims are 
a cancer in our Nation that needs cutting out. So when we 
arrive at how the state deals with this Muslim population, we 
know that we are already dealing with the situation in which so 
many in the law enforcement community see the Muslim community 
as a security problem, not fully fleshed members of our 
community here to make a contribution.
    So I, too, was disappointed in the guidance that was 
recently issued by the Department of Justice and believed that 
at no time can we have a system of justice in which someone's 
race or religion or what they are wearing can justify 
engagement by law enforcement. Law enforcement should engage 
citizens when there is some articulable suspicion that that 
person might commit a specific crime. And that should be the 
basis of the engagement.
    Until we say that racial profiling, religious profiling, is 
actually bad law enforcement, we will continue to bother people 
and engage people who had nothing to do with any wrongdoing and 
we will miss people who are up to no good and will harm us.
    Again, thank you, all of the Committee Members and my 
fellow panelists for this excellent presentation. Thank you, 
Mr. Chairman.
    Chairman Durbin. Congressman Ellison, thank you. 
Congressman Gutierrez it is great to see you over here again.
    Representative Gutierrez. Thank you.
    Chairman Durbin. Senator Booker, thanks. We appreciate it 
as your colleagues. I dismiss, with gratitude, our first panel 
and thank them for adding to this.
    I want to acknowledge--in the audience today is Martin 
Castro, Chair of the U.S. Commission on Civil Rights. It is 
good to see you Marty.
    Now I would like to call the second witness panel to come 
to the table. As they are coming to the table, I will give you 
an introduction on them.
    One longtime friend, Wade Henderson, president and chief 
executive officer of the Leadership Conference on Civil and 
Human Rights. The Leadership Conference is the Nation's 
preeminent civil and human rights coalition with more than 200 
national organizations in its membership.
    Mr. Henderson, professor at the University of District of 
Columbia David Clarke School of Law--prior to joining the 
Leadership Conference he was the Washington bureau director of 
the NAACP, graduate of Howard University and Rutgers University 
School of Law. I thank you for being here today.
    Dr. Cedric Alexander currently serves as president of 
NOBLE, the National Organization of Black Law Enforcement 
Executives on whose behalf he is appearing. He is the deputy 
chief operating officer in charge of the Office of Public 
Safety for DeKalb County, Georgia.
    Dr. Alexander previously served as Transportation Security 
Administration Federal Security Director for Dallas Fort Worth 
International Airport, deputy commissioner of the Office of 
Public Safety at the New York State Division of Criminal 
Justice and chief of police in Rochester, New York, law 
enforcement officer for 15 years in Florida, a doctoral degree 
in clinical psychology from Wright State University. Dr. 
Alexander, thank you.
    Our next witness is a familiar friend, Laura Murphy, 
director of the Washington Legislative Office of the American 
Civil Liberties Union, a position she has held on several 
occasions. She is the first woman, first African American, 
longest serving head of the Federal Affairs Operation in ACLU's 
94-year history. She received her Bachelor's from Wellesley 
College.
    It is the custom of this Committee to swear in our 
witnesses. If you would all please rise.
    Do you affirm that the testimony you are about to give 
before the Subcommittee be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Alexander. I do.
    Mr. Henderson. I do.
    Ms. Murphy. I do.
    Chairman Durbin. Thank you. Let the record reflect that all 
three witnesses answered in the affirmative.
    Let me first call as the first witness, Wade Henderson.

  STATEMENT OF WADE HENDERSON, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS, 
                         WASHINGTON, DC

    Mr. Henderson. Thank you, Mr. Chairman--Chairman Durbin, 
Ranking Member Cruz, and Members of the Subcommittee. I am Wade 
Henderson, president and CEO of the Leadership Conference on 
Civil and Human Rights, a coalition of more than 200 national 
organizations representing persons of color, women, children, 
organized labor, persons with disabilities, seniors, the 
lesbian, gay, bisexual and transgender community, and the 
faith-based community.
    Let me start by thanking you, Senator Durbin, for your 
remarkable leadership of the Subcommittee. From the passage of 
bipartisan legislation like the Matthew Shepard and James Byrd, 
Jr., Hate Crimes Prevention Act and the Fair Sentencing Act, to 
chairing hearings, examining voter rights, Stand Your Ground 
Laws, and the civil rights of American Muslims. You have been a 
champion on issues of vital importance to the civil and human 
rights community for years.
    Let me also acknowledge you, Ranking Member Cruz, in your 
role as the new Chair of the Subcommittee in the 114th 
Congress. Senator, we are hopeful that as the new Chair, you 
will build on the Subcommittee's legacy and continue to work in 
a bipartisan fashion to make progress for our Nation. We look 
forward to collaborating with you to achieve our common goal of 
protecting and advancing civil and human rights for all 
Americans.
    This hearing is taking place at a pivotal time for the 
Nation. The recent killings of unarmed Black boys and men by 
police officers across the country have fueled a growing 
diverse passionate and increasingly organized movement for 
justice across racial lines that cannot be ignored.
    In particular, the recent non-indictments of the police 
officers who killed Michael Brown in Ferguson, Missouri, and 
Eric Garner in Staten Island, New York, and the new information 
about the suitability of Officer Timothy Loehmann who killed 
12-year-old Tamir Rice in Cleveland, Ohio, remind us that we 
live in a country founded on principles of equality and 
opportunity, African Americans and other communities of color 
still find that the promise of equality and opportunity has yet 
to be fully realized.
    On nearly every indicator that we use in the United States 
to measure progress, people of color are falling further 
behind. And in some important ways, doing worse than they were 
in 1960. Our schools have re-segregated. Our levels of 
unemployment are at an all-time high. We face continued 
discrimination in voting and our incarceration rates have 
increased exponentially.
    So as we mark a number of anniversaries this year and next, 
including the Civil Rights Act, Freedom Summer, the Voting 
Rights Act, and Bloody Sunday, we must acknowledge and 
celebrate how far we have come. But we must also be aware of 
just how far we have to go in the quest for equality. Systemic 
obstacles to full inclusion and opportunity remain for our 
communities and we have failed to establish the justice and 
equality that we all seek.
    Now without question, our criminal justice system is in 
crisis. Racial and ethnic bias and discrimination persists at 
every stage from policing to trial to sentencing and finally to 
reentry. We should use our resources to more adequately address 
public safety and invest in alternatives to incarceration where 
appropriate.
    And we must put in place commonsense reforms that prohibit 
discriminatory profiling, demilitarize local law enforcement, 
redefine the standards for use of force by police, and 
establish accountability. We must eliminate harsh sentencing 
policies that disproportionately impact communities of color 
and pass the bipartisan Smarter Sentencing Act as well as 
assist with successful re-entry. Finally, we need vigorous 
enforcement of hate crime protections and expanded coordinated 
police community efforts to track and respond to hate violence 
and improve hate crime data collection.
    More than a decade after President Bush announced that 
racial profiling is ``wrong and we will end it in America,'' 
communities across the country, particularly African Americans, 
Latinos, Asian Americans, Arab and Muslim Americans, and those 
perceived to be Arab and Muslim, including South Asians, Middle 
Easterners, and Sikhs, are still subjected to profiling in a 
variety of contexts, including street-level enforcement, 
immigration enforcement, and counterterrorism efforts.
    Profiling is an ineffective law enforcement practice. It is 
detrimental to public safety and is antithetical to the 
constitutional right to equal protection under law.
    Now yesterday the Department of Justice issued long-awaited 
revisions to its 2003 profiling guidance for Federal law 
enforcement. This represents an important step forward by 
expanding protected categories and limiting some of the 
existing loopholes.
    Where it falls short in the areas of national security, 
border integrity, and the failure to apply State and local 
enforcement, we will work with this administration to end 
profiling by all law enforcement. Further, the shortfalls in 
the guidance reinforce the need for Congress to act and we will 
redouble our efforts to ensure passage of the End Racial 
Profiling Act in the 114th Congress.
    I would like to turn next to voting rights. While the days 
of poll taxes, literacy tests, and brutal physical intimidation 
are behind us, voting discrimination is still a problem for 
many Americans. Last month's midterm elections were the first 
to be held without the protection of Section 5 of the Voting 
Rights Act because of the Supreme Court's 2013 Shelby County 
versus Holder decision and we saw increased efforts to 
implement the new restrictions on voting, including mandatory 
voter identification laws, limits on early voting, last-minute 
changes in polling places, changes to methods of elections, and 
racially biased gerrymandering that disproportionately impact 
communities of color.
    As a result, we witnessed the most unfair, confusing, and 
discriminatory election landscape in almost 50 years. It is a 
disgrace to our citizens, to our Nation, and to our standing in 
the world as a beacon of democracy. The 114th Congress must fix 
the Shelby decision by enacting the bipartisan Voting Rights 
Amendment Act to ensure that no voter faces discrimination.
    These are big challenges, Mr. Chairman. The Leadership 
Conference's goal is to create an America as good as its 
ideals. It is not just rhetoric. This is the critical and 
necessary work in which all Americans of good conscience should 
be engaged, particularly our elected officials who are charged 
with addressing problems of national importance.
    We look forward to working with you and the Subcommittee on 
these important issues. Thank you, sir.
    [The prepared statement of Mr. Henderson appears as a 
submission for the record.]
    Chairman Durbin. Dr. Alexander.

       STATEMENT OF CEDRIC ALEXANDER, Psy.D., PRESIDENT,
NATIONAL ORGANIZATION OF BLACK LAW ENFORCEMENT EXECUTIVES, AND 
                 PUBLIC SAFETY DIRECTOR, DEKALB
                        COUNTY, GEORGIA

    Mr. Alexander. Thank you, sir, and good afternoon Chairman 
Durbin and Ranking Member Cruz and Members of the Subcommittee. 
I bring you greetings on behalf of the executive board and 
members of the National Organization of Black Law Enforcement 
Executives, commonly referred to as NOBLE.
    My name is Dr. Cedric Alexander, national president of 
NOBLE and deputy chief operating for public safety, DeKalb 
County, Georgia.
    It is an honor to be here today to participate as a witness 
in the Senate's hearing on The State of Civil and Human Rights 
in the United States. I want to acknowledge and thank you, 
Chairman Durbin, for holding this hearing and inviting me to 
participate.
    I speak to you from a perspective of a person who has over 
37 years of law enforcement experience and who has held a 
number of high-level positions in Federal, county, and city 
local levels. In addition, I hold a Ph.D. in clinical 
psychology. And quite frankly, Senator, some days I do not know 
whether that is an asset or liability.
    I represent an organization, NOBLE, whose mission is to 
ensure equity in administration of justice and a provision of 
public service to all communities and to serve as the 
conscience of law enforcement by being committed to justice by 
action. It is my position that this country has the unique 
opportunity today to address the lack of trust and 
understanding of law enforcement by communities of color. It is 
imperative to every citizen that we collectively deploy 
solutions to the areas of training, community policing, and 
technology to ensure that America is secure both domestically 
and internationally.
    Second, through the solutions we were able to further the 
hopes and dreams of many of our forefathers and realizing true 
civil rights and human rights as stated in the Declaration of 
Independence: ``We hold these truths to be self-evident, that 
all men are created equal, that they are endowed by their 
Creator with certain unalienable Rights, that among these are 
Life, Liberty, and the pursuit of Happiness.''
    The recent events in Ferguson, Missouri, and in Staten 
Island, New York, when combined with real and/or perceived 
attacks on civil rights legislation, have created an 
environment where many people of color feel disenfranchised by 
their national and local government. More importantly, there is 
a pervasive belief, right or wrong, that the lives of 
minorities are of less value than that of their counterparts.
    So with that, let us talk about solutions to building 
bridges of understanding and partnership between enforcement 
and communities they are to serve and protect. Training, sir, 
being at the forefront of all of this. Cultural competency is a 
critical component to bridging the gap amongst law enforcement 
and communities of color. It is the foundation for people of 
different cultures and social economic backgrounds to interact 
effectively.
    When developed and implemented as a framework, cultural 
competency enables systems, agencies, and groups of 
professionals to function effectively to understand the needs 
of culturally diverse groups. It is critical that law 
enforcement reevaluates its training methodologies to ensure 
that they reflect the 21st century needs and incorporate 
cultural competency training for police officers--that is part 
of the recruiting and in-service training.
    Militarization of police has become a growing concern and 
interest throughout our country in recent years through to the 
use of tactical equipment and gear to combat everyday crime. 
The 1033 Program was created by the National Defense 
Authorization Act of 1997 as part of the U.S. Government's 
Defense Logistics Agency disposition services to transfer 
excess military equipment to local law enforcement agencies. 
Every year, hundreds of millions of dollars worth of military 
equipment flows from the Federal Government to State and local 
police departments.
    As a result, departments have implemented the use of 
military equipment, as seen most recently in Ferguson, 
Missouri, which to many Americans was unfairly targeted toward 
other American citizens. There must be justification, 
accountability, and training to support the continued use of 
such tactical measures and equipment. NOBLE feels that training 
is a key component of ensuring the correct application of this 
type of resource.
    Community-oriented policing, which we all have heard a lot 
about over the years--it is our recommendation that the law 
enforcement community adopt community policing as a philosophy 
of policing in this country. Here are some of the key 
components of community policing: Community policing allows 
officers to demonstrate their support for the community; 
residents and officers are allies; officers respect and protect 
the civil rights of residents; racial profiling and other forms 
of discrimination are strictly prohibited.
    Community policing demands that officers interact with 
people who live or work in neighborhoods that they patrol. 
Officers are trained to communicate with people, solve 
community problems, and develop an appreciation of cultural and 
ethnic differences. And the other side of that, sir, is very 
important as well, too, that communities work closely with 
police, align themselves with their local police, and become 
partners.
    This is not a one-way street. This is a two-way street when 
we talk about public safety. It takes everyone, police and 
community together, in order to provide the type of public 
safety I think that we all want to embrace in our respective 
communities.
    Community policing emphasizes the importance and the value 
of human life. The use of excessive force is absolutely 
prohibited and deadly force is reserved strictly for when an 
officer's life or the life of a citizen is at risk.
    NOBLE has launched a pilot program entitled, ``The Law and 
Your Community.'' Through funding from the Department of 
Justice COPS Office, this program's aim is to develop trust and 
understanding between law enforcement and the community.
    The Law and Your Community is an interactive training 
program for young people between the ages of 13 and 18 years of 
age. It is designed to improve their communication with law 
enforcement officers and their understanding of Federal, State, 
and local laws.
    Components of the program include, but are not limited to, 
citizenship. What does it mean to be a citizen? What are the 
laws governing everyday life, including traffic laws? And what 
are your rights as a citizen?
    Basic laws--understanding the basic laws of issues such as 
gun ownership, staying safe within your community, and 
maintaining positive affiliations with others including peer 
relationships, maintaining good grades, adult relationships, 
and the benefits of having mentors.
    Law enforcement engagement--educating young people and 
adults on how to engage and navigate communication with local 
law enforcement officers. What is community policing? Have a 
better understanding of realities of working in law enforcement 
and working with those who do that job.
    And last, technology--we feel that technology can be 
leveraged to support the effective implementation of community 
policing and ensure maximum transparency to the public. Through 
technology, partnerships with communities can be strengthened 
in the area of problem-solving and partnership initiatives.
    Likewise, there is an important role in applying technology 
and improving the effectiveness of law enforcement training. 
Listed are some of those technology recommendations: 
requirements of body cameras for every law enforcement officer 
in this country--every law enforcement officer in this country; 
deployment of various social media platforms to allow law 
enforcement departments to better communicate and interact with 
local residents; and, of course, use of force and firearm 
training systems which will help them to develop and sharpen 
their skills of ``shoot'' and ``don't shoot.''
    By implementing these recommendations on training, 
community policing, and technology, we believe that real 
progress can be made in improving the relationship between law 
enforcement and the communities they serve. This would greatly 
improve the state of civil rights and human rights in America.
    I thank the Subcommittee for the opportunity to testify and 
would be happy to answer any questions that you may have. Thank 
you.
    [The prepared statement of Mr. Alexander appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Dr. Alexander.
    Laura Murphy.

  STATEMENT OF LAURA MURPHY, DIRECTOR, WASHINGTON LEGISLATIVE 
     OFFICE, AMERICAN CIVIL LIBERTIES UNION, WASHINGTON, DC

    Ms. Murphy. Thank you, Senator Durbin and Ranking Member 
Cruz for inviting the ACLU to testify at today's hearing.
    For nearly 100 years, the ACLU has worked to defend and 
preserve the rights that the Constitution and the laws of the 
United States guarantee. I would especially like to thank you, 
Senator Durbin, for your tireless leadership as Chairman. You 
have held hearings on a variety of critical issues from 
solitary confinement to racial profiling and addressing 
barriers to voting and for that we are so very thankful.
    My written testimony provides an extensive and broader view 
of the state of civil and human rights, but today I will focus 
my remarks on three areas of unfinished business: (1) the 
militarization of police; (2) sentencing reform; and (3) 
criminal disenfranchisement in voting.
    We are standing at a crossroads in America right now. One 
must only look to the current crisis in Ferguson, in New York 
City, and in Cleveland, to see that extreme problems in 
policing continue. With recent police paramilitary tactics 
splashed across our TV screens, we must ask ourselves, Do we 
want an America where the exercise of First Amendment rights is 
met by assault weapons and teargas, where armored vehicles are 
used in our day-to-day policing, where policing resembles our 
military operations in Iraq and Afghanistan, where communities 
of color are disproportionately under siege? If the answer to 
these questions is ``no,'' Congress must act immediately.
    Militarized policing goes far beyond Ferguson. Although 
SWAT teams were originally created to deal with life or death 
emergencies like hostage crises, they are now overwhelmingly 
used to serve search warrants in drug investigations. A recent 
ACLU report found that SWAT teams were used 79 percent of the 
time for raiding a person's home, most often for drugs.
    Such tactics are unnecessary and excessive. What message 
are we sending by using weapons of war to police American 
communities?
    Congress must ensure accountability. Federal funding and 
providing military equipment should be conditioned on data 
collection, use of body-worn cameras, anti-racial profiling 
training, and insistence on community policing, as my good 
friend has pointed out.
    The war on drugs has created an incarceration nation with 
too many people in prison for too long, serving no useful 
benefit to society. One of the major reasons for expanded jail 
and prison populations over the past 30 years is the use of 
stiff mandatory minimum sentencing for nonviolent offenses.
    Prison costs now absorb nearly a third of DOJ's 
discretionary budget, 30 percent. The cost, though, goes far 
beyond simply the money it takes to incarcerate over 2.3 
million people. The true cost are human lives, mainly of 
generations of young Black and Latino men and women who serve 
long prison sentences and are lost to their families and 
communities.
    Organizations across the political spectrum support truly 
bipartisan sentencing reform such as the Smarter Sentencing Act 
and we thank you for that. That act would address the ongoing 
crisis in our Federal prisons by reducing the prison 
population. The SSA is sponsored by Senators Durbin, Lee, 
Leahy, Cruz, and Representatives Bobby Scott and Raul Labrador.
    The bill also has considerable conservative support. The 
time is now to pass the Smarter Sentencing Act. It is only a 
first step in reducing over-incarceration.
    There is another tragic outcome of our Nation's 
incarceration binge. Almost 6 million of our citizens have lost 
the right to vote because of a past criminal conviction, and 
many instances, very low-level crimes. Upon release from 
prison, these citizens work, they pay taxes, they live in our 
communities, and they raise families, but millions cannot vote.
    One out of every 13 African Americans of voting age has 
lost the right to vote. That is four times the national 
average, but millions have no input on our political process. 
That is unacceptable.
    We commend Senators Ben Cardin and Rand Paul for their 
leadership in this area and we urge the passage of the 
Democracy Restoration Act, a bill that would restore voting 
rights in Federal elections to millions of citizens.
    Ending discrimination should be and historically has been a 
bipartisan issue. Just consider the multiple Voting Rights Act 
extensions that we have had. Consider the laudatory Fair 
Sentencing Act of 2010. These would not have happened without 
bipartisan support. Only with bipartisan support can we make 
much-needed changes to our criminal justice policies.
    I am sorry Senator Cruz had to leave because we would like 
to work with him as well on changing our criminal justice 
policies. We look forward to working with him as the new Chair 
and all Members of the Subcommittee in the 114th Congress on 
these critical issues.
    I want to thank you so much for this opportunity to testify 
and before I end, I would ask special consideration before the 
hearing record is closed, I would like to ask if the ACLU may 
submit a document outlining some of the gender-related problems 
in our criminal justice system.
    Chairman Durbin. Without objection.
    [The information appears as a submission for the record.]
    Ms. Murphy. Thank you.
    [The prepared statement of Ms. Murphy appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. Murphy.
    Mr. Henderson, there was a time when witnesses came before 
this Subcommittee and told us about what had happened when we 
had the 100-to-1 disparity between crack and powdered cocaine. 
Over a span of 20 years or more, there was a massive 
incarceration of African Americans, unjustly, unfairly, for 
undue long periods of time, but there was another reaction, the 
African-American community understood it and as a consequence, 
when many of the same people were called to serve on juries to 
try people for drug crimes, they remembered and it became 
increasingly difficult for prosecutors in some areas to win a 
prosecution before a jury that was integrated.
    They told us that story and it was understandable. Let me 
take that to what I think we currently face, at least in some 
communities that I am aware of. We have seen a decline in 
violent crime in the city of Chicago, but still too many 
violent crimes.
    The overwhelming majority are Black-on-Black crimes. When 
you visit the communities that are the most dangerous, where 
the children are in the most danger going back and forth to 
school, even playing, sitting on a porch, you find a reaction 
from people in the community that they do not reach out to the 
police, they do not cooperate with the police, they fear the 
drug gangs and those who own the guns, but they fear reaching 
out to the police is going to be just as dangerous or 
unproductive.
    Two areas of nullification, but one that has a direct 
negative impact on the people living there. Tell me how you 
react to that.
    Mr. Henderson. Well, Mr. Chairman, it is a terrific 
question and I think you have correctly pointed out some of the 
challenges that law enforcement and the communities that they 
are paid to protect often encounter in their relationship with 
one another. The relationship between law enforcement and the 
African-American community, as Senator Booker helped lay out in 
his presentation, has a long history based on fundamental 
injustices that our country has yet to fully overcome.
    And you correctly point out that, obviously, communities 
experiencing crime regardless of the makeup in color of that 
community needs the protection that law enforcement provides. 
On the other hand, when law enforcement is applied 
inconsistently, unfairly, without equal protection and often 
without respect for the lives of the individuals that law 
enforcement is charged to protect, you develop a level of 
ambivalence, indeed a level of fear, that may affect how you 
respond to the legitimate needs of law enforcement in the 
engagement with the communities they serve.
    Now, let me say at the outset, this is not a generalized 
indictment of law enforcement. We know many police officers. We 
work with police officers and many police officers are fully 
committed to protecting their charges regardless of the race of 
the communities they prosecute. Having said that, there are 
identifiable problems, some of which have surfaced in the last 
several weeks, in the cases that we have cited which clearly 
point out the need for further training and responsibility to 
ensure that these individuals are protected.
    One of the concerns that we expressed with the guidance 
issued by the Department of Justice is that it did not go far 
enough to require State and local police officers not engaged 
in direct Federal law enforcement activity, which is covered by 
the guidance, but law enforcement that relies on Federal 
support, Federal dollars, Federal equipment, that these 
departments should be required to attest to under Title VI of 
the Civil Rights Act of 1964 which prohibits racial and ethnic 
and national origin discrimination. These departments should 
attest to the fact that they have training programs designed to 
ensure that racial profiling or profiling of the kind that we 
have discussed that should be prohibited does not take effect. 
The problems of unconscious bias which often affect police 
departments can be overcome with training, that attestations of 
the fact that these departments have taken affirmative steps 
are needed.
    Now to get back to your specific question about the 
communities that, in turn, are experiencing crime and are 
fearful about reporting those crimes to the police, 
representing another form of nullification, I guess I would 
say, Senator, the truth is, most crime occurs in this country 
in communities in which inhabitants reside. So yes, there is 
Black-on-Black crime just as there is White-on-White crime. The 
communities and the makeup of the community often determines 
that.
    Having said that, there is a legitimate concern on the part 
of many communities that reporting crime, as much as they would 
like to have the protection of the police officers, often 
invites a level of systemic abuse which they had seen in the 
implementation of our criminal laws and the unfairness of it 
all.
    So when we talk about incarcerating individuals for years 
at a time for nonviolent, drug-related criminal activity and 
yet we turn to look at legal use of the same product in States 
like Colorado that had individuals incarcerated for long 
periods of time, whether it is in Illinois or Minnesota or 
other locations, there is obviously some sense of unfairness 
and injustice. We need to try to reconcile that.
    One last point, your effort on the Fair Sentencing Act, we 
have talked about it here, but the truth is, had you not shown 
the kind of leadership that you demonstrated, your willingness 
to reach out to Senator Sessions, your willingness to cut a 
deal and we talked with you at that time, we obviously were 
pleased that the 100-to-1 disparity was being changed. We had 
hoped that the disparity would have been eliminated entirely, 
that there would have been a 1-to-1 ratio of incarceration 
based on crack or powder cocaine.
    Nonetheless, the change that the two of you helped usher in 
and was approved by the Senate, has led to a substantial 
reduction in prison time for individuals who would have been 
adversely affected on an average of about 3 years.
    The cost factors involved in the incarceration of these 
individuals and the impact that returning to their communities 
at an earlier point in time has had on the overall nature of 
the community is beyond price. You should be very proud of what 
you have been able to accomplish.
    Chairman Durbin. Thank you very much, Mr. Henderson.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Boy, there is so 
much here. This is a moment, I think, in this country that our 
first witnesses and all of you have talked about how Ferguson, 
Staten Island, Cleveland are not anomalies, but there is a 
focus now in this country. And this is a moment and it is a 
moment that I think we really need to, at least, at the very 
least, try to grapple with this, try to focus on it and try to 
legislate.
    I heard from a friend whom I had not heard from in 20 years 
after Senator Booker spoke--and you heard how powerfully he 
spoke today. He spoke at our caucus lunch and that same evening 
I got an email from a friend I had not seen in 20 years who 
said you have to do something about this. I have conversations 
with my 15-year-old son that are very uncomfortable, just like 
Senator Booker talked about, what it is like for a young 
African-American male, that there is no margin for error in 
dealing with law enforcement.
    I want to ask you, Dr. Alexander, you talked about 
community policing and it sounds to me that, like what you were 
saying, Mr. Henderson, I believe, was that when there is not 
Federal crime involved there is still Federal funding involved. 
Can we require some kind of protocol in community policing?
    Let me ask you something because this is the difference 
between Ferguson and Staten Island, I think. At Ferguson, the 
police department really did not represent the community in its 
makeup. I think in New York it does more. And this is for 
anyone on the panel, but maybe Dr. Alexander first, what does 
that say about training versus, or in league with, having the 
police department represent the community?
    Mr. Alexander. Well, it is important, Senator. As we all 
know, diversity is a very important concept I think we all tend 
to pay very close attention to and one, in this Nation, that I 
would hope whether it is Government or private industry, we all 
make an attempt to rectify, particularly when we see agencies 
as such that may be lacking in that area.
    Diversity is hugely important. There are many departments 
across this country who are doing it very well every day and 
there are some communities in this country, Senator, that 
struggle with the whole concept of diversity. Some of it may be 
deliberate, where they do not take it that seriously. In some 
cases, you will have a community such as Ferguson where I had 
the opportunity to spend some time with the chief there on a 
number of occasions and we talked about diversification in his 
department and will use Ferguson as an example.
    That is a community where the demographics in that city 
changed from White to Black over about a 20-year span. I mean, 
changed hugely. In that transition, the department, the police 
department itself, did not transition to look more like their 
community. Now, in all fairness to Chief Jackson, he made 
attempts as he stated to me, to diversify that department.
    One of the biggest challenges that he had inasmuch as he 
wanted to make that department more representative of that 
community, he struggled with the fact that the same population 
that he was trying to recruit, every other police department in 
his area was trying to recruit as well, too.
    For example, St. Louis PD, St. Louis County Police 
Department. A lot of these officers of color tend to go to 
larger agencies where they are paid more money and more 
opportunity for advancements. And then you also had him and 
others competing for that same population, as well, even in 
private industry.
    But one thing that I concluded and I made very clear to 
him, and I talked to a number of my chief and police and 
administrative colleagues across this country, regardless of 
what that challenge may be to you, we can no longer accept the 
fact we cannot find any. That is no longer acceptable.
    What it means, Senator, is that departments that struggle 
with recruitment of people of color, they are going to have to 
work harder. They are going to have to put money in their 
budgets. They are going to have to go outside their communities 
to recruit and they may even have to develop within their 
communities, within their local public schools, pipelines where 
children and young people can become police explorers, and you 
begin to groom those young people from very early on in their 
educational process so that maybe at some point they become a 
pipeline into your police agency.
    It is a challenge in some parts of the country. Where I 
come from, in DeKalb County, Georgia, metro Atlanta, I do not 
have a problem recruiting people of color. I do not have that 
issue, but here again, it depends on where you are. But one 
thing I will not accept is the fact that I cannot find people 
of color. It just means we have to become more creative and we 
have to become more determined and we have to look around as 
well, too, and see how other departments or other industries 
are recruiting, because we may not have to re-create that 
wheel.
    But accepting the fact that we cannot find people of color 
is not acceptable because a community deserves to look like the 
government that serves it, whatever that government is that 
serves that community, there should be some similarities there 
as well, too. But I can say this, there are a number of 
departments out there across this country, police departments 
across this country, who really make dedicated efforts, who 
really work hard to diversify their agency not only at the 
lower ranks, but all the way up to the top and we have to 
applaud those.
    But there are agencies out there as well, too, that 
struggle. Some struggle because they do not have any control 
over that and others struggle maybe because they do not see the 
benefit in it and we have to hold those agencies, whoever they 
are out there, we have to hold them accountable.
    Ms. Murphy. I would ask that these Senators and Members of 
Congress be creative in attaching conditions to Federal funds 
to local police departments. We had the Hyde Amendment many 
years ago which is still in force. It said no Federal funds 
shall be used for abortion.
    Why are Federal funds being used for racial profiling? That 
is, in fact, what is happening now. We believe the President 
has the authority under Title VI of the Civil Rights Act to 
require local police departments receiving Federal funds not to 
discriminate. And there is a debate in the Justice Department. 
So many people in the Justice Department said we cannot have 
any jurisdiction over local police, but millions of dollars 
flow into over 85 percent of local police departments and I 
think this should be an amendment strategy or a conversation 
with the President, but it is important for Congress to act 
because what is going on in communities of color is just so 
horrible when it comes to community and police relations. 
Something has to be done.
    And I just want to say that Attorney General Eric Holder, I 
think, gets this. His staff is working on Byrne JAG grants and 
that flows a lot of money into police departments.
    They say that Congress has a great deal of authority over 
those programs. So I would ask Members of this Committee to 
look at the COPS Program, to look at Byrne JAG grants and to 
see what restrictions can be enacted so that Federal funds are 
not used in a discriminatory fashion.
    Mr. Henderson. Senator Franken, could I just add one point 
to your last question?
    Senator Franken. Sure.
    Mr. Henderson. Thank you. You touched on the non-indictment 
of Eric Garner and New York and you talked about the police 
department being more representative of the community. Indeed, 
it is.
    Yesterday, Attorney General Eric Schneiderman of New York 
issued a request to Governor Cuomo--which we supported, by the 
way--asking that in instances where police shootings involving 
civilians occurred, that a special prosecutor be appointed to 
conduct the inquiry and to handle the indictment process. We 
believe that that is necessary.
    Police departments have an inherent conflict of interest 
with local prosecutors. That is not to say that they have 
teamed up to avoid the indictment of police officers. It is to 
say that the special relationship that prosecutors enjoy with 
police, after all, they depend upon police to provide 
information and often testimony in cases that they handle. You 
cannot handle a police shooting of a civilian in an impartial 
way without bringing in a prosecutor from the outside.
    So when we look at the situation in Staten Island, when we 
look at the situation in Ferguson--in the Ferguson 
circumstance, the outcome was virtually foretold at the moment 
that the prosecutor elected not to recuse himself over the 
request of local individuals and his record suggested that this 
outcome was predictable. It is not that way in every 
circumstance, but certainly it is enough of a concern that the 
approach that Attorney General Schneiderman took is one that we 
would recommend broadly.
    Senator Franken. Thank you--thank you all.
    Chairman Durbin. Thank you, Senator Franken.
    Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for convening this hearing. Thank you to each of you for being 
here and for your extraordinary work over many, many years. I 
want to just go from the last remark that you made, Mr. 
Henderson, because I think that the lack of indictment in the 
Garner case has certainly shocked and appalled countless people 
and led to the kind of suggestions that State Attorney General 
Schneiderman made. I am not sure that the Federal Government 
would have authority to require a special State prosecutor to 
prosecute a local or State policeman, but I think the 
suggestion certainly is one that has attracted a lot of support 
and understandably and rightly so.
    I appreciate all of you raising the sentencing issue. I am 
a cosponsor of the Smarter Sentencing Act that was introduced 
by our Chairman, Senator Durbin, and Senator Lee, and I know as 
a former prosecutor how important discretion is and how 
restricting discretion, most particularly in sentencing, can 
impede justice and fairness and also be against the interest of 
society.
    I also have called for a stronger oversight as the use of 
military equipment--right now, as you probably know, there 
really is no, in effect, collection of data as to what is 
dispensed by the Department of Justice, where it goes, what it 
is used for. There is essentially no accountability by either 
the Department of Defense or the Department of Justice and I 
think one or the other has to impose some accountability.
    I want to say, in preface to the question I am going to 
ask, that I have great respect for police and prosecutors 
around the country. I have worked in law enforcement for the 
better part of 40 years, beginning in 1977 as the U.S. Attorney 
in Connecticut and then as a State Attorney General.
    I think there has been tremendous progress in the quality 
of our policing community at State, local, and Federal levels 
in the quality of training, the quality of people and practices 
and even diversity over these years which in no way minimizes 
the progress that we still have to make. I respect the jobs 
they have to do, day-in and day-out, facing extraordinary 
dangers and life-and-death decisions that have to be made 
sometimes instantaneously.
    But I do think that we all benefit by better information 
and right now I think a lot of folks have come to realize that 
there is essentially no information about the deaths that occur 
while individuals are in custody or under arrest. I have 
introduced legislation in the Senate called the Death In 
Custody Reporting Act. It is a companion bill to Representative 
Bobby Scott's bill which passed the House by a voice vote--a 
voice vote and passed this Committee earlier this year.
    It is a pretty simple piece of legislation. It requires 
States to report how many individuals die each year while they 
are in custody or during the course of an arrest. The stark 
staggering fact is we do not know. And I am going to ask that 
two recent articles be entered into the record. One is from The 
Washington Post, of September 8, and it is entitled, ``How Many 
Police Shootings A Year? No One Knows.'' The second comes from 
the Wall Street Journal, of December 3, and it is entitled, 
``Hundreds of Police Killings Are Uncounted in Federal Stats.''
    The Washington Post article essentially says that we know 
that there are a lot of police shootings, but they are all 
self-reported. There is no requirement that they be reported. 
And, again, that is in no way to indicate disrespect for the 
decisions that are made in those individual instances by 17,000 
law enforcement agencies, but the fact is only 750 of them 
report shootings.
    We know the number of police that were shot. We know a vast 
variety of statistics about what is happening on farms, in 
cities, but we do not know the number of people including 
justifiable homicides as they are called that happen on our 
streets and in our police department. So I hope that--and by 
the way, Mr. Chairman, I would like for these to be entered 
into the record if there is no objection.
    Chairman Durbin. So ordered.
    [The information appears as submissions for the record.]
    Senator Blumenthal. I hope that you will indicate your 
support for this legislation. I think it would be meaningful to 
have your opinion and would ask you simply whether you feel 
this kind of legislation would make sense.
    Mr. Alexander. Would you mind if I start, sir?
    Senator Blumenthal. Mr. Alexander, I am happy to have you 
start. I would ask, Mr. Chairman, that each of the other 
witnesses be given an opportunity to respond as well.
    Mr. Alexander. Yes, sir. I am in total support of that. 
Part of what we are experiencing across this country right now 
is a failure by many Americans, not just African Americans, but 
Americans across this country feel a total disconnect from the 
criminal justice system. In light of the Michael Brown 
shooting, Eric Garner case, it has become more pronounced. I 
think people who are not African American, people who did not 
have that experience, being African American or of color in 
this country, are beginning to see clearly that something is 
wrong in our criminal justice system, not just police, but our 
entire criminal justice system across the board 360 degrees.
    In regards to what you are speaking to sir, I find it 
unfortunate and embarrassing, as a law enforcement official, 
that there is not any Federal legislation that requires that 
cities, States, travel communities, villages all across this 
great Nation are not reporting those types of shootings and 
deaths to a Federal authority because they need to be reported, 
they need to be investigated, they need to be studied 
scientifically and develop some evidence-based material that 
might be helpful in identifying a trend in which right now we 
are just all kind of anecdotally looking at.
    So I certainly support that as the president of NOBLE and I 
would hope that the rest of this country would support it as 
well, too, because as a sophisticated country as we are, and 
the leaders of the world, we have a responsibility in this 
Nation where we have the people who are now protesting in the 
streets from Berkeley to Maine and from South Florida to 
Detroit, all across this Nation and around the world. We need 
to take more accountability.
    We need to begin to close some of those gaps and expose 
ourselves and become much more transparent to the American 
people in terms of the criminal justice system and how we do 
business because that is the biggest piece that angers people 
in Ferguson, and Staten Island, and the rest of this Nation. 
There is absolutely no sense of transparency. There is a loss 
of trust and commitment not just from police, but from the 
entire criminal justice community, and we are a better Nation 
than that and we have to move toward some real reform, sir.
    Senator Blumenthal. Very well said.
    Mr. Alexander. Thank you.
    Senator Blumenthal. Ms. Murphy?
    Ms. Murphy. Yes. We support the Death in Custody Act and we 
hope that the Senate can take it up before the end of the lame-
duck session. But, you know, data collection is key. We were 
making momentum in Congress after the Rodney King shooting.
    First, the ACLU helped write the Traffic Stop Statistics 
Act because we had documented in a report that we call, 
``Driving While Black,'' how many times Black motorists were 
pulled over by State and Federal police. There was no data 
there, but then the problem expanded to stop and frisk and 
street interactions and we did not have data there. So we 
worked on the End Racial Profiling Act which would require data 
collection as a key element. And we think without the data, it 
is hard to make real reform because we need to know where the 
problem is, how long it has been going on, which departments 
are having the most difficult encounters, and the fact that 
this information is not collected by the Federal Government is 
just a travesty.
    So data collection is crucial to any kind of criminal 
justice reform, especially getting to the issue of racial 
profiling.
    Mr. Henderson. Senator, my colleagues have elaborated quite 
clearly on the value of the Death In Custody Act. The 
Leadership Conference is a big supporter of the bill. Like Ms. 
Murphy, we are hopeful that the Senate will act on this 
initiative before it adjourns sini die. That gives us just a 
few days, but it is such a basic fundamental piece of 
legislation.
    The data collection is essential and that is all the bill 
would do. So for that reason, we hope that I can get the kind 
of bipartisan support here that it was able to obtain in the 
House and we hope the bill becomes law.
    Senator Blumenthal. Thank you--thank you all.
    Chairman Durbin. Senator Coons.
    Senator Coons. Thank you Senator Durbin--thank you Chairman 
Durbin for convening this hearing today. I would like to thank 
the panel for your compelling testimony and for your answers to 
the many questions posed here.
    Like my colleagues, and certainly the leadership of Senator 
Durbin has been outstanding on this, I am a cosponsor and a 
supporter of the Smarter Sentencing Act that he and Senator Lee 
have advanced of the Death In Custody Reporting bill that was 
just discussed by Senator Blumenthal. So let me--rather than 
repeating a lot of topics that have already been covered--
simply ask for your input on two different questions that are 
related.
    First, I, too, find it shocking we do not have reliable 
statistics. I, like many of my colleagues, worked closely with 
and respect law enforcement and the difficult and dangerous 
jobs that they do, but for us to simply have no data, no 
meaningful data on deaths in law enforcement incidents, to me 
is deeply puzzling, frustrating, concerning, and something we 
need to step forward and take some responsibility for and act 
to address.
    First, why do so many departments refuse to collect and 
report reliable statistics and why can we not get stronger 
bipartisan action on that first? Second, we have an undeniably 
unequaled impact on communities of color in this country from 
our criminal justice system. Just in my home State of Delaware, 
which is roughly 22 percent African-American, 42 percent of 
arrests, 64 percent of the prison population, 86 percent of 
those who are arrested for drug use. There is an undeniably 
disparate impact on communities of color and there are several 
different ways that we could also have broken that out.
    The costs, both the lifetime costs, the moral cost, the 
fiscal costs on African-American men in particular, as my 
colleague, Senator Booker detailed earlier, is overwhelming. I 
choose to be encouraged that there are bipartisan bills that I 
hope this Congress will consider and take up now and in the 
next Congress. But what can we do to reduce and eliminate the 
unfair toll that our criminal justice system takes on minority 
communities? And I would be grateful if the panel will answer 
each of those two questions to the extent you feel inclined, in 
the time we have remaining. Thank you.
    Mr. Henderson. I will start, Senator Coons, and I will be 
very brief. First, again, I want to reiterate a point that both 
I and Laura Murphy have made about using Title VI of the Civil 
Rights Act to condition the receipt of Federal funds on a 
commitment of nondiscrimination and providing the affirmative 
training necessary to ensure that that commitment can be 
carried out.
    I believe--I think many of us believe that the departments 
that receive Federal funds, over 85 percent of the police 
departments in the country today, do not begin with an 
affirmative decision to discriminate against their citizens. 
These are police departments with officers that are committed 
to fair treatment, I think, for all.
    Having said that, however, there are certain systemic 
factors that enter into the equation that make the kind of 
biased policing that we have seen almost inevitable. 
Stereotypes, misperceptions about activity, the assumption that 
one community is more dependent on drug use than another when 
in fact the statistics would suggest almost equanimity in the 
way in which drugs are used. All of those are factors.
    So data collection is important. Training is important and 
encouraging affirmative behavior by using a statute that is 
over 50 years old, in our view, makes common sense and we hope 
that that can be encouraged.
    I would make one other point. The Smarter Sentencing Act is 
an incredibly valuable tool and it is often framed in moral 
terms as a way of addressing this disparity that exists in 
sentencing and, indeed, it is a moral issue.
    But there is another very practical factor that makes this 
such an important initiative. The Department of Justice will 
tell you that the Bureau of Prisons, which it administers, is 
currently eating up about 40 percent of the Department's budget 
with that number growing annually because of the mass 
incarceration that our Government supports.
    The growth of the Federal budget, the Department of Justice 
budget and being consumed by the Bureau of Prisons means that 
other discretionary programs that are so important to the 
communities in which our Federal officers are deployed cannot 
be administered effectively with that rate of growth in the 
Bureau of Prisons. And we are hoping that those statistics will 
help encourage Members to look at this.
    And then last, the President has initiated, as you know, a 
program called My Brother's Keeper. It has spawned a private 
initiative called the Boys and Men of Color Initiative. When it 
was initially proposed, there were some who seemed skeptical 
about the value of that program.
    However, looking at the events of recent weeks and months 
with the killing of young boys and men by police officers and 
the attendant economic circumstances that feed into that 
problem, one would hope that the President's initiative would 
get a second look and a measure of support and that goes beyond 
the enforcement of existing Federal laws and using the good 
offices of the President and Members of Congress to encourage 
private engagement in these activities as well.
    Senator Coons. Thank you, Mr. Henderson.
    Dr. Alexander?
    Mr. Alexander. Yes, Senator, I think it becomes important 
to note, unfortunately, sometimes cities and States are not 
going to take the responsibility to collect data. And it 
becomes, for me, I think, at that point, a Federal issue where 
legislation needs to be imposed so that we can begin to direct 
communities to impart with all of us publicly and privately any 
information, particularly around in custody deaths. I would 
even go beyond that and say severe injuries as well, too, 
because if there are re-occurrences or if there is a threshold 
that is met that brings about a certain amount of pause.
    I think that gives an opportunity for all of us to begin to 
look at those agencies. Sometimes it may not be without ill 
intent. It may just be because of poor training or a lack of 
internal policies that dictates that certain procedures need to 
take place.
    Oftentimes, what I found over the years, and I have been in 
this business a very long time now, is that many of our police 
officers out there who were doing this job every day across 
this country are doing a great job. That is the greatest 
majority of them. And sometimes along the way, being that 
policing is not an exact science, sometimes they get it wrong, 
not intentionally, but sometimes they do.
    But the difference is this, though, it is life-and-death 
and when death is experienced, then it comes to light and then 
people start asking questions across this country and in those 
communities and oftentimes there are no answers. That is one of 
the biggest problems that is happening today. There are no 
answers. There is a feeling of no transparency whatsoever. And 
where truth is not seen or experienced or felt by people 
emotionally, what we end up with is just what we are 
experiencing today.
    The questions you are asking, Senator, are really age-old 
questions and questions we have talked about and danced around 
before, but we have never drawn any conclusion to.
    We are at a place now, in this Nation's history, that we 
are going to have to begin to answer these questions. We are 
going to have to explore, Mr. Chairman, reasons and ways in 
which we are going to change and look at this criminal justice 
system in a very different kind of way because it is not the 
same for all people.
    Sometimes it is based on race. Sometimes it is based on 
gender. Sometimes it is based on what your economic class may 
happen to be or all of the above plus some more. But we have 
got to change this because this is just not a--what we are 
experiencing every night in this country now is no longer just 
a fashionable thing, if you will.
    It is not just a reaction. We are seeing what is evolving 
into a movement. It is like we saw the civil rights movement in 
the 1960s. It is evolving into a movement because all people 
across this Nation--if you look at Berkeley, California, you 
look at the demographics of that community both economically 
and race, thousands of people who are marching out there every 
night and some will say that that group is also made up of 
anarchists, and it may be, but I can pretty much assure you as 
well to that a great number of people that are marching across 
this country every night are just American citizens who are 
saying we want to see something different. We need--our whole 
criminal justice system needs to be explored and possibly 
revamped.
    Now that is a heavy lift. We understand that, but what we 
have to do right now and ginger in the rest of this country, is 
a sense of hope that someone is looking at this, someone is 
paying attention, someone is hearing them and something 
different is going to happen because the American people in my 
estimation are just not going to accept this is just being 
another incident because they had been too frequent and they 
had been--I should have you look at the overall incidence in 
each one of these cases, what you will constantly find is young 
African Americans confronting police officers who are 
oftentimes very different from them in race and in economic 
status, there is a disconnect in this country, not just in 
policing but there is a disconnect across the whole criminal 
justice system.
    Even the grand jury process needs to be explored because 
when you have communities in this Nation who no longer trust 
law enforcement, when you have people in this Nation who tell 
their children that they should be afraid of the police and 
they are afraid for their children to go outside because they 
may be harmed by the police, that is a bad place that we are at 
in this country and we need to acknowledge it and we need to 
begin to do something about it.
    But I have to be perfectly honest with you, I am tired of 
people talking to me about it. We truly have to figure out some 
strategies, some new strategies and maybe do some things in 
this country we have never tried before, but we have got to 
take some risk to do something very different than just the 
same rhetoric that we can constantly give back to people of 
this country because they are not accepting it any longer and I 
am not going to give it to them any longer.
    Back in my community, my whole idea is to help create some 
strategies, some change so that community and police and the 
criminal justice system work well together. A safer community, 
a safer America. This is not a separated States of America. 
This is a United States of America and part of our whole 
criminal justice system is based on the fact of equality for 
everyone and when we can reach that goal--and it may not become 
attainable in my lifetime, but we have to get on that 
trajectory and we have got to find a way to get there. I am 
willing to do whatever it takes to get there and I think we all 
are, but it is something that has to be addressed today, sir. 
Thank you for the question.
    Senator Coons. Thank you, Dr. Alexander.
    Ms. Murphy?
    Ms. Murphy. Yes. It is always interesting being the only 
woman at a hearing. We represent 50 percent of the population, 
but we have to be feisty in order to be heard. So I appreciate 
my male colleagues but I think there are a number of questions 
that I would like to address and if I am not able to address 
them in the oral part of the hearing, I would like to be able 
to submit answers to you for the record.
    But I think your specific question about why we cannot get 
to data collection goes back to the Fraternal Order of Police. 
They oppose the Traffic Stop Statistics Act, they oppose the 
End Racial Profiling Act.
    What we need is a convening of police unions and civil 
rights leaders, maybe at the initiation of you, Senator Coons, 
or you, Senator Durbin, because they feel--and members of the 
FOP have told me that if data is collected, it will be used to 
punish them.
    We are not out to punish the police. We are out to end 
discrimination. And I think the police have to be brought into 
these discussions and the unions have to be brought into these 
discussions because they are the people who many Members of 
Congress rely on for political endorsements. So they have a 
greater power in some cases than many of our organizations that 
do not have political action committees.
    I still think that there is this lingering fear that many 
elected officials have of looking soft on crime. So we have not 
policed the police as vigorously as we could or should.
    I think now is a moment. We have got to use this moment. If 
it does not happen now, it is not going to happen.
    Senator Coons. Well, thank you, Ms. Murphy. Thank you, Mr. 
Chairman, for indulging a full answer to my questions by the 
whole panel of witnesses. It is, to summarize, my hope to that 
in a period when a lack of answers, a lack of transparency, a 
lack of accountability has led many to protest, not just the 
perception but the reality of a disconnection between our 
communities and those charged with the important duty of 
keeping us safe but doing so within our constitutional order, 
it is my real hope that we will take action--an action that 
leads to change, that leads to hope.
    But I am clear that without this sort of action that you, 
Mr. Chairman, have led in leading this bipartisan bill, we will 
not make progress. So thank you for your leadership in 
convening this hearing, and for everything you are doing and we 
hope to do together ahead. Thank you.
    Chairman Durbin. Thanks, Senator Coons. I would like to do 
maybe one or two follow-up questions.
    Ms. Murphy, when I first saw that armored personnel carrier 
in Ferguson, Missouri, I thought, what in the world is going on 
here? I did not know police departments had that kind of 
equipment. I assumed, maybe the most elite biggest city, 
terrorist threat type of situation, but Ferguson, Missouri?
    And it crossed my mind, several questions, what in the 
world are they doing parading that out at what appeared to be, 
at the moment, a much different kind of street demonstration? 
Second, what are we doing as a Federal Government peddling this 
kind of hardware? Third, is this just a product of some 
swaggering, chest-thumping chief of police and procurement 
officer that want to have the newest and biggest and toughest 
looking vehicles?
    But then another question kind of came to me. Do we not 
live in a country where people are fighting for the right of 
individual citizens to own military assault weapons? And are we 
not asking these police to keep communities safe where those 
citizens might live?
    It seems to me that there is an interesting conversation 
that needs to take place here. I do not want to see armored 
personnel carriers in every police department in my State, by 
any means. But I also want to be cognizant of the fact that our 
police are facing weaponry that we are blessing here, at some 
levels--and you have even heard it here today in this 
Committee--that go way beyond the threats that policemen 
historically faced. I want to be sensitive to that. So how do 
you respond?
    Ms. Murphy. I want to be sensitive to that, too. But, if 
you look at the usage of these armored vehicles, these 
helicopters, these bazookas, these M-16s, they are used for 
routine law enforcement.
    Chairman Durbin. Which makes no sense.
    Ms. Murphy. Which makes absolutely no sense. Now, if they 
were used to fight terrorism or armed robbery, bank robberies, 
or hostage situations, then it makes more sense. And it is so 
racially biased the way this equipment is being used.
    When there is a hostage crisis in the White community, you 
will see the armored vehicles. But when there is a routine 
protest or drug arrests in the Black community, you will see 
these vehicles and more.
    Plus, we are rewarding people like Sheriff Arpaio who has a 
boatload of weaponry that he claims he needs in order to 
enforce our immigration laws.
    Chairman Durbin. Let us let the police organization 
respond.
    Mr. Alexander. Thank you, Chairman. I certainly do 
appreciate what my colleague, Ms. Murphy, is saying and I 
certainly do understand her perception and am quite sure in 
conversations that she has had with many citizens in her 
community across the country.
    Let me say this as a 37-year veteran in policing where I 
have spent all of my career, from Miami, Florida, to Orlando to 
New York and now DeKalb County, Georgia.
    The 1033 Program, I think one of the failures of the 
program, sir, is quite frankly this. You just cannot give out 
this equipment to anyone who wants it.
    In Ferguson, Missouri, that equipment did not belong to the 
Ferguson Police Department. That equipment belonged, if I am 
not mistaken, to St. Louis County Police Department or the 
State Police. Now, some of that equipment, maybe all of it, I 
cannot say specifically, may have been acquired through the 
1033 Program, but the way in which it was utilized in Ferguson, 
quite frankly in short, was wrong. All day it was wrong. And 
many chiefs across this country have spoken out against the 
fact that, how it was used was wrong.
    Now the other piece, or the other side to your point, Mr. 
Chairman, is the fact that post-9/11, this country is still in 
a position where we are keeping ourselves safe. Police 
departments across this country are certainly being confronted 
with small arms and large arms that are at the pleasure of a 
lot of criminals that are out there.
    We find situations, and certainly I have seen situations, 
in my county in DeKalb where we have used equipment, they are 
not tanks, we do not own bazookas and sometimes I think this 
equipment gets exaggerated because none of us have rocket 
launchers or bazookas, but to the common layperson it all looks 
the same. I get it. It is the optics of it.
    But the reality of it is, there are going to be times when 
police are going to have to respond to active shooters. If we 
think about situations across this country where we have had 
school shootings, mall shootings, movie theater shootings, we 
want our officers to be able to get in, find that target, and 
do what needs to be done to save the lives of others. The only 
way they are going to do that sometimes is, they are going to 
have to be in armored equipment.
    The problem is not the equipment itself, it is the 
utilization of it and before that heavy equipment, in my 
opinion, is given out, there needs to be--you need to be able 
to show a need for it in your community. That is number one. 
You need to be able to show cause and a need.
    Number two, you need to be held accountable to that 
equipment which means that you have to have written policies 
which have its terms of engagement as to when you will take 
that equipment out and under what circumstances it would be 
used for.
    One thing we cannot use it for is for people who are 
peacefully protesting in this country. We cannot do that. The 
optics on Ferguson was horrific and I think it shocked many 
people in this country, all across this country, regardless of 
whether they were Democrats or Republicans, Black or White, men 
or women. It was shocking. And we learned from it, hopefully.
    But what we want to be able to do is also protect our 
police officers. But there has to be a time and moment when 
that equipment is utilized because if I am being held hostage 
in my home or in my bank when I am making a deposit, I want the 
police to be able to get there and be safe in getting there so 
that they can secure that bank, arrest that criminal, and get 
me home.
    So there is a place for it, but it is not to be used 
against American people who are protesting and exercising their 
First Amendment right as to what we all witnessed and which, 
understandably, left a bad taste in many Americans' mouths.
    Chairman Durbin. Thank you very much, Dr. Alexander.
    Mr. Alexander. Thank you.
    Chairman Durbin. My thanks to this panel. There has been a 
great deal of interest in this hearing today. We have here a 
statement from Senator Leahy and statements from more than 70 
different organizations wanting to be a part of the record on 
this general overview of civil rights in America today. Since 
there is no one here to object, it is going to be put in the 
record.
    [The prepared statement of Chairman Leahy appears as a 
submission for the record.]
    [The information appears as submissions for the record.]
    Chairman Durbin. I want to make two closing comments.
    First, I want to acknowledge Mara Silver on my staff who 
has been the author of the Smarter Sentencing Act and has 
worked harder on it than anybody. Mara, thank you so much for 
what you have done.
    And special thanks to Joe Zogby who, 8 years ago, said to 
me, Senator, I think we need a Subcommittee on Human Rights. 
And I said, Joe, what would we talk about? Well, we found a lot 
to talk about for 4 years and then, when we were merged into 
the Constitution, Civil Rights and Human Rights Subcommittee--I 
am very proud of what this Subcommittee has set out to do, 
particularly proud of the fact that we actually created 
legislation that starts to address some of these issues rather 
than just talk about them and that is primarily due to the 
guidance of Joe Zogby and the staffers who have worked with 
him. I thank Joe and his family here today, for giving me such 
great service to this Judiciary Committee.
    There may be some follow-up questions coming your way and 
if you could respond to them in a timely fashion, I would 
certainly appreciate that.
    This is, as I said, my last hearing as Subcommittee Chair 
for the time being and I am hoping that Senator Cruz, or 
whoever succeeds me, will continue in this tradition of 
addressing the issues of our day.
    Thank you for joining us.
    This Subcommittee stands adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
